<html>
<title> - PROTECTING THE ELECTRIC GRID FROM THE POTENTIAL THREATS OF SOLAR STORMS AND ELECTROMAGNETIC PULSE</title>
<body><pre>[Senate Hearing 114-483]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 114-483

                 PROTECTING THE ELECTRIC GRID FROM THE
      POTENTIAL THREATS OF SOLAR STORMS AND ELECTROMAGNETIC PULSE

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

                             JULY 22, 2015

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                      U.S. GOVERNMENT PUBLISHING OFFICE
22-225 PDF                    WASHINGTON : 2016                    
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="99fee9f6d9faeceaedf1fcf5e9b7faf6f4b7">[email&#160;protected]</a>  



        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
          Gabriel S. Sudduth, Senior Professional Staff Member
      Jeffrey A. Fiore, Government Accountability Office Detailee
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
         Abigail A. Shenkle, Minority Professional Staff Member
       Harlan C. Geer, Minority Senior Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                            
                            
                            
                            
                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................    25
    Senator Ernst................................................    26
    Senator Ayotte...............................................    28
Prepared statements:
    Senator Johnson..............................................    45
    Senator Carper...............................................    47

                                WITNESS
                        Wednesday, July 22, 2015

Hon. R. James Woolsey, Former Director of Central Intelligence, 
  and Chairman, Foundation for Defense of Democracies; 
  accompanied by Peter Vincent Pry, Ph.D., Executive Director of 
  the Task Force on National Homeland Security...................     3
Joseph H. McClelland, Director, Office of Energy Infrastructure 
  Security, Federal Energy Regulatory Commission.................     4
Richard L. Garwin, Ph.D., Fellow Emeritus, IBM Thomas J. Watson 
  Research Center................................................     6
Christopher P. Currie, Director, Homeland Security and Justice, 
  U.S. Government Accountability Office..........................     9
Bridgette Bourge, Senior Principal, Legislative Affairs, National 
  Rural Electric Cooperative Association.........................    10

                     Alphabetical List of Witnesses

Bourge, Bridgette:
    Testimony....................................................    10
    Prepared statement...........................................    97
Currie, Christopher P.:
    Testimony....................................................     9
    Prepared statement...........................................    77
Garwin, Richard L.:
    Testimony....................................................     6
    Prepared statement...........................................    69
McClelland, Joseph H.:
    Testimony....................................................     4
    Prepared statement...........................................    62
Woolsey, Hon. R. James:
    Testimony....................................................     3
    Prepared statement...........................................    49

                                APPENDIX

Charts submitted by Senator Johnson..............................   102
Statement submitted for the Record from American Public Power 
  Association....................................................   104
Statement submitted for the Record from National Center for 
  Policy Analysis................................................   106
Responses to post-hearing questions for the Record:
    Mr. Woolsey..................................................   109
    Mr. McClelland...............................................   111
    Mr. Currie...................................................   116
    Mrs. Bourge..................................................   119

 
PROTECTING THE ELECTRIC GRID FROM THE POTENTIAL THREATS OF SOLAR STORMS 
                       AND ELECTROMAGNETIC PULSE

                              ----------                              


                        WEDNESDAY, JULY 22, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Ayotte, Ernst, Sasse, Carper, 
McCaskill, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Now that I have my cup of coffee, this 
hearing will come to order. Senator Carper will be a little bit 
late, so he told me that I could start the hearing without him.
    Let me first welcome our witnesses. Thank you for your 
thoughtful testimony. I have read it all. I hope every 
Committee Member has read it all. I hope everybody in the 
audience has, and I would encourage members of the public to 
read this testimony and pay attention to this hearing.
    I was first made aware of the potential threat of 
electromagnetic pulse (EMP), disruptions to our electrical grid 
and geomagnetic disturbances (GMD) well before I ever became a 
United States Senator. But I think like most members of the 
public, it is one of those scary things that is, ``Ah, that is 
just science fiction. What are the chances of that?''
    When I became a United States Senator, I was briefed by a 
couple gentlemen who gave me a booklet that I read that made me 
pretty concerned. This was probably a couple of years ago, and 
I started talking to other Members, and a lot of those Members 
never really even heard of this threat.
    I have raised this in secure briefings with members of the 
Department of Homeland Security (DHS), and I have been told, 
``OK, we are on that. We are looking into it.''
    But the fact of the matter is that this was first made 
public and declassified in 2004, and we had a congressional 
commission on that. And then we had another commission in 2008, 
and the dangers posed by EMP and GMD have been well known 
really for decades but made public now for over 10 years, and 
we literally have not done anything.
    So the purpose of this hearing is to basically stop and 
pull our head out of the sand, and start paying attention to 
this very real threat. We are going to be debating a nuclear 
deal with the State of Iran. We already know we have North 
Korea with both nuclear weapon capability and ballistic missile 
technology, and that ballistic missile technology is improving 
in North Korea.
    We know that Iran has those exact same ambitions, and I 
guess now we have a deal that is going to end an embargo on 
their ballistic missile technology. There are satellites that 
are orbiting overhead that could potentially deliver a nuclear 
explosion that would cause something like this. So this is a 
threat that is real and that we need to acknowledge.
    Now, as I was made aware of this and I started talking to 
colleagues, a lot of time people's opinion of this was 
marginalized by, ``Well, those are just lobbyists that want to 
sell the Federal Government some protections.'' I think we need 
to keep our eyes open for that type of conflict. But it is no 
reason to not be addressing this and taking a look in a very 
serious fashion.
    So today we have I think, a good panel of witnesses, 
starting with Ambassador James Woolsey and Joseph McClelland 
and Richard Garwin and Chris Currie and Bridgette Bourge--am I 
pronouncing that correctly?
    Ms. Bourge. Yes, Senator.
    Chairman Johnson. That is actually unusual that I get it 
right the first time.--some people that will give us the truth 
and give us the information on this. So I am looking forward to 
your testimony. When Senator Carper gets here, we will give him 
an opportunity to make an opening statement as well, but let us 
just start by maintaining the tradition of this Committee, 
which is that we do swear witnesses in. So if you would all 
rise and raise your right hand. Do you swear that the testimony 
you will give before this Committee will be the truth, the 
whole truth, and nothing but the truth, so help you, God?
    Mr. Woolsey. I do.
    Mr. McClelland. I do.
    Mr. Garwin. I do.
    Mr. Currie. I do.
    Ms. Bourge. I do.
    Chairman Johnson. Thank you. Please sit.
    Our first witness will be Ambassador James Woolsey. 
Ambassador Woolsey is the former Director of Central 
Intelligence and Ambassador to and chief negotiator for the 
Conventional Forces in Europe Treaty from 1989 to 1991. He is 
currently the Chairman of the Foundation for Defense of 
Democracies and is a venture partner with Lux Capital 
Management. Ambassador Woolsey.

TESTIMONY OF THE HONORABLE R. JAMES WOOLSEY,\1\ FORMER DIRECTOR 
 OF CENTRAL INTELLIGENCE, AND CHAIRMAN, FOUNDATION FOR DEFENSE 
   OF DEMOCRACIES; ACCOMPANIED BY PETER VINCENT PRY, PH.D., 
   EXECUTIVE DIRECTOR OF THE TASK FORCE ON NATIONAL HOMELAND 
                            SECURITY

    Mr. Woolsey. Thank you, Mr. Chairman. In the interest of 
our 6-minute limit, I will summarize quickly several major 
points.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ambassador Woolsey appears in the 
Appendix on page 49.
---------------------------------------------------------------------------
    First of all, the Earth has been being bombarded by 
electromagnetic pulses for about 4\1/2\ billion years, so in 
one sense, this is not a new issue. And I am not going to get 
into the details of the difference between the different 
wavelengths from electromagnetic pulses versus those created by 
the Sun and the like, but will generalize more in the interest 
of time.
    We have a very serious problem with exactly what you 
described: lack of willingness to admit or understand at the 
beginning that this could be as serious as it is given how 
horrible it is. People tend to want to shove those types of 
issues aside.
    But, in fact, there are ways in which electromagnetic pulse 
threats are more serious than a conventional version of a 
nuclear threat. For example, deterrence may not work at all 
with respect to electromagnetic pulse. The reason is we may not 
know where the pulse came from. If everything goes dark, it may 
be a solar event, and it may be North Korea.
    Furthermore, a satellite can be launched into orbit with a 
southern trajectory, so it misses, at least initially, all of 
our radars and other sensors that are focused north. And, 
second, it could be launched--a Scud with a warhead could be 
launched from a freighter off one of our coasts. We recently 
had a North Korean freighter picked up by the Panamanians that 
had two air defense missiles in it, each capable of putting 
something into orbit.
    So we have a very serious problem from the point of view of 
deterring particularly a country such as Iran or North Korea 
that is not playing by anywhere close to the standards of 
rationality that one would see even in, let us say, China or 
Russia when we are having tense relations with one another.
    So I think that is the first and biggest problem. We do not 
just have a probability issue the way one would have if we were 
only worried about the solar EMP events. That could be bad 
enough because we are due for a very large pulse event. The 
last one occurred over a century and a half ago, and we are due 
for another. But that could come anytime or not come for some 
time.
    The decision by a North Korean leader or an Iranian leader 
that it is time to destroy the electric grid of the United 
States is a different matter. We do not know what they are 
going to do and when. People say, ``Well, they are not crazy.'' 
But sometimes individual government leaders such as Adolf 
Hitler are mad north by northwest. They have horrible 
objectives, and they pursue them very diligently. The 
objectives are not something any of us would sympathize with.
    The same could well be true of an Iranian missile, which 
they have now, and an Iranian nuclear weapon, which I think 
even under this agreement they are likely to have or be able to 
have within months to perhaps a year or two.
    The use of electromagnetic pulse has been embodied in 
writings in the East, Russian and Chinese particularly. I would 
call everybody's attention to the work of the Russian General 
Vladimir Slipchenko in his military textbooks which focus on 
EMP together with cyber as the new mode of warfare. An EMP for 
the North Korean, Iranian, Russian, and Chinese point of view 
is part of cyber and a particularly deadly part.
    There have been a number of efforts for us to find some way 
to take positive steps to do something about electromagnetic 
pulse, whether from a nuclear weapon or from the sun, and they 
have all been thwarted. Washington is completely dysfunctional 
on this issue and has been for some time. The amount of money 
involved is relatively small by infrastructure need standards. 
According to the EMP Commission, about $2 billion, about what 
we give in foreign aid to Pakistan every year for dealing with 
the essentials of the electric grid, $10 to 20 billion, 
according to the Commission, would protect all of the critical 
infrastructures from nuclear EMP attack.
    From the point of view of the cost of improvements in our 
infrastructures that are badly needed, that is not a great deal 
of money. But so far the resistance in the North American 
Electrical Reliability Corporation (NERC), and in industry has 
been solid and total. They have been able to prevent steps by 
individual States that have wanted to take action, and they 
have done everything they possibly can to keep the Critical 
Infrastructure Protection Act (CIPA) and the reestablishment of 
the congressional EMP Commission and the SHIELD and GRID Acts 
all bottled up and not being able to be passed by the Congress.
    One, perhaps two pointed observations by Texas State 
Senator Robert Hall, a former Air Force colonel and himself an 
EMP expert, characterizes the behavior of the electric 
utilities and their lobbyists on this matter, Mr. Chairman, as 
``equivalent to treason.''
    Thank you.
    Chairman Johnson. Thank you, Ambassador Woolsey.
    Our next witness will be Joseph McClelland. Mr. McClelland 
is the Director of the Office of Energy Infrastructure Security 
(OEIS) at the Federal Energy Regulatory Commission (FERC). His 
office provides leadership, expertise, and assistance to 
identify, communicate, and seek comprehensive solutions to 
potential risks to FERC-regulated facilities from cyber attacks 
and physical threats such as electromagnetic pulses. Mr. 
McClelland.

 TESTIMONY OF JOSEPH MCCLELLAND,\1\ DIRECTOR, OFFICE OF ENERGY 
 INFRASTRUCTURE SECURITY, FEDERAL ENERGY REGULATORY COMMISSION

    Mr. McClelland. Thank you, Chairman Johnson, for the 
privilege to appear before you today to discuss threats to the 
electric grid in the United States. In the interest of time and 
pursuant to your request, I will skip over the section that 
details the E1, E2, and E3 threats.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McClelland appears in the 
Appendix on page 62.
---------------------------------------------------------------------------
    My name is Joe McClelland, and I am the Director of the 
Office of Energy Infrastructure Security at the Federal Energy 
Regulatory Commission. I am here today as a Commission staff 
witness, and my remarks do not necessarily represent the views 
of the Commission or any individual Commissioner.
    Under Section 215 of the Federal Power Act, the Commission 
is entrusted with the responsibility to approve and enforce 
mandatory reliability standards for the Nation's bulk power 
system. These standards are developed and proposed by the North 
American Electrical Reliability Corporation.
    Section 215 of the Federal Power Act provides a statutory 
framework for the development of reliability standards for the 
bulk power system. However, the nature of a national security 
threat by entities intent on attacking the United States 
through its electric grid stands in stark contrast to other 
major reliability events that have caused blackouts and 
reliability failures in the past. Widespread disruption of 
electric service can quickly undermine the U.S. Government, its 
military, and the economy, as well as endanger the health and 
safety of millions of its citizens.
    Therefore, to provide a significantly more agile and 
focused approach to these growing cyber and physical security 
threats, the Commission established our office in late 2012. 
Our office's mission includes responses to geomagnetic 
disturbances and electromagnetic pulses.
    Just briefly, in 2001 Congress established a Commission to 
assess and report on the threat from EMP. In 2004 and again in 
2008, the Commission issued reports on these threats. One of 
the key findings in the reports was that a single EMP attack 
could seriously degrade or shut down a large part of the 
electric power grid. Depending upon the attack, significant 
parts of electric infrastructure could be ``out of service for 
periods measured in months to a year or more.'' And some would 
say that is optimistic.
    In order to better understand and quantify the effect of 
EMP and GMD on the power grid, FERC staff, the Department of 
Energy (DOE), and the Department of Homeland Security, all 
three agencies, sponsored a single study conducted by the Oak 
Ridge National Laboratory in 2010. The results of the study 
support the general conclusion of prior studies that EMP and 
GMD events pose substantial risk to equipment and operation of 
the Nation's electric grid and under extreme conditions could 
result in major long-term electrical outages. Unlike EMP 
attacks that are dependent upon the capability and intent of an 
attacker, GMD disturbances are inevitable with only the timing 
and magnitude subject to variability. The Oak Ridge study 
assessed a solar storm that occurred in May 1921, which has 
been termed a 1-in-100-year event, and applied it to today's 
electric grid. The study concluded that such a storm could 
damage or destroy over 300 high-voltage electric grid 
transformers and interrupt service to 130 million people with 
some outages lasting for a period of years.
    To help address these matters, the Commission has used both 
regulatory and collaborative actions.
    Under its regulator authority, the Commission ordered NERC 
to develop two GMD reliability standards for the bulk power 
system, requiring new operational procedures and vulnerability 
assessments.
    Under its collaborative programs, the Commission actively 
participates with Federal agencies and industry members to 
establish action plans, develop risk assessments that identify 
key energy facilities, and prioritize best practices that 
exceed regulatory requirements at those facilities for cyber 
and physical security matters, including both GMD and EMP.
    In addition, the Commission continues to facilitate threat 
briefings to industry members and cooperate with our 
international partners to compare ongoing initiatives.
    Internationally, over a dozen nations have GMD and/or EMP 
programs in place or are in the early stages of addressing or 
examining the impacts of GMD and EMP. For the United States, 
although GMD baseline standards and some best practices are 
being established for portions of the electric grid, few 
entities have taken steps to address EMP on their systems.
    In conclusion, these types of threats pose a serious risk 
to the electric grid and its supporting infrastructures that 
serve our Nation.
    Thank you for the opportunity to be here today, and I would 
be delighted to answer any questions you have.
    Chairman Johnson. Thank you, Mr. McClelland.
    Our next witness is Dr. Richard Garwin. Dr. Garwin is a 
Fellow Emeritus at the IBM Thomas J. Watson Research Center, 
testifying in his personal capacity. He brings significant 
experience on issues related to electromagnetic pulse. In what 
is now the Los Alamos Laboratory, he outlined the first design 
for a hydrogen bomb and wrote the first paper on the 
electromagnetic pulse from nuclear explosions in the 
atmosphere. He has served as an adviser to the Federal 
Government for decades on national security issues, including 
by serving on the JASON Defense Advisory Board. He is a member 
of the National Academies of Science, Engineering, and 
Medicine, among other organizations, and he has received the 
Enrico Fermi Award, the R.V. Jones Award for Scientific 
Intelligence, and the National Medal of Science.
    Dr. Garwin, when we met earlier, I remembered reading a 
briefing that Enrico Fermi referred to you as one of the only 
true geniuses he had ever met, so I think that is pretty good 
praise from somebody that is also a genius. We are looking 
forward to your testimony. Dr. Garwin.

TESTIMONY OF RICHARD L. GARWIN, PH.D.,\1\ FELLOW EMERITUS, IBM 
                THOMAS J. WATSON RESEARCH CENTER

    Dr. Garwin. Thank you, Mr. Chairman. Actually, Ambassador 
Woolsey created the R.V. Jones Award, which was later awarded 
to me.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Garwin appears in the Appendix on 
page 69.
---------------------------------------------------------------------------
    The spectacular images of Pluto this week from the National 
Aeronautics and Space Administration (NASA) New Horizons probe 
provoked great interest in our solar system. But our solar 
system is a matter for concern, as well. The 1,200 people 
injured in February 2013 at Chelyabinsk, Russia, from a 
bolide--a meteor--brought substantial focus on low-probability, 
high-consequence events. Among these are particularly intense 
magnetic storms from space--weather events or coronal mass 
ejections from the Sun, possibly even more intense than the 
1859 Carrington Event in the pre-electric grid era.
    Another potentially great impact on the electrical grid and 
modern society is the electromagnetic pulse from high-altitude 
nuclear explosions, on the order of 100 kilometers or more 
above the Earth's surface.
    The United States has been a leader in long-distance 
transmission of electrical power, but its system differs in 
characteristics, management, and organization from those of 
other advanced States. Nevertheless, there is much to be 
learned from and by the United States in working to make our 
electrical grid robust and economical in the modern era of 
technological threats and opportunities.
    I begin with my recommendations to ease and essentially 
solve the severe problem posed by geomagnetic storms induced by 
space weather--specifically by the routine ejection from the 
sun of enormous blocks of plasma that travel out within the 
solar system and reach the Earth typically in a couple of days. 
Most of these coronal mass ejections do not reach the Earth. 
They go in other directions. When they do reach the Earth, they 
cause displays of the Northern Lights and Southern Lights, and, 
more importantly, the magnetized plasma and its incorporated 
magnetic field merge with the magnetic field of the Earth and 
change it by a relatively small amount, which, however, can 
create large currents on long electrical conductors such as 
pipelines, telegraph wires in the old days, and the electrical 
power transmission system--the Bulk Power System.
    Very serious consequences are estimated for such an event 
of a magnitude that can be expected to occur at random once per 
century.
    I emphasize that a once-per-century event might occur next 
week; it has a probability of 10 percent of occurring within 
the next 10 years--a time in which we can and should take 
measures to reduce and essentially eliminate its impact on the 
Bulk Power System of the United States. But events expected to 
occur once in 20 years can cause significant damage and 
disruption.
    My recommendations regarding the Bulk Power System: Missing 
in Federal policy and practice is a program to:
    One, train and equip utility and transmission operators to 
bring down within seconds--that is, to switch off--transmission 
lines that are at risk of being damaged;
    Two, implement ``rapid islanding'' of the grid, to maintain 
a large fraction of the power consumers in operation by the use 
of whatever island--that is, local--generation capacity exists; 
this also facilitates restoring the Bulk Power System to 
operation, in contrast with a so-called black start.
    Three, fit transmission lines on a priority basis with 
``neutral current-blocking devices''--capacitors--in the common 
neutral-to-ground link of the three-phase transformers of 
extra-high-voltage transmission systems at one end of the 
line--whether three-phase transformers or three single-phase 
transformers. Where transformers at both ends are 
autotransformers, this may not be possible, in which case 
series-blocking capacitors in the power lines themselves should 
be installed and could be kept shorted until an EMP event is 
recognized, or a geomagnetic storm.
    Four, alert grid operators and others to a high-altitude 
nuclear explosion within thousandths of a second of the event 
(by detection of the unambiguous very brief E1 pulse).
    In my supplemental testimony submitted for the record, I 
provide support for these recommendations and explain why they 
would largely and immediately also eliminate long-lasting 
damage to the extra-high-voltage transmissions system that 
might otherwise result from a high-altitude nuclear explosion.
    So if we solve the problem that is sure to arise from space 
weather and geomagnetic storm, we will solve the long-distance 
transmission problem from high-altitude nuclear explosions, 
which may or may not arise.
    Those are also deterrable if they are from a place like 
North Korea or Iran, and, it is better to plan to deter them by 
means of our projected response, as well as to prevent damage 
from their happening. But those are two arms of the response.
    I should say that in 2011 I was a co-author of a study by 
the JASON group, ``Impacts of Severe Space Weather on the 
Electric Grid,'' and on pages 3 to 5 of that report, there are 
recommendations that include the ones I am giving now.
    Also, interestingly, there is the so-called E-PRO Handbook, 
the electric protection handbook, Executive Summary 2014 and 
International E-PRO Report of September 2013. That specifically 
advocates geomagnetic storm-induced current blockers, the 
neutral current ground interruptors, series capacitance in 
lines, reducing transformer loads, and real-time threshold-
based transformer protection.
    Finally, I say that series-blocking capacitors in the power 
lines themselves are poorly understood. These are small 
devices, not like the enormous fields of transformers, of 
capacitors that are deployed for power--factor correction. But 
it is a little difficult to understand them because they have 
to be bigger in capacitance but smaller by a factor of 100 or 
30 altogether because they have less energy storage, less mega-
volt ampere ratings than the power factor correction. But maybe 
as a result of this hearing, they will get more attention.
    Thank you.
    Chairman Johnson. Thank you, Dr. Garwin. And that obviously 
is the purpose of this hearing.
    Our next witness is Mr. Chris Currie. Mr. Currie is a 
Director of the Government Accountability Office (GAO), where 
he leads the agency's work in evaluating emergency management, 
national preparedness, and critical infrastructure protection 
issues. In this role, Chris has led reviews of numerous Federal 
programs and efforts to prevent, plan for, and respond to 
natural and manmade disasters and terrorist attacks. Mr. 
Currie.

   TESTIMONY OF CHRISTOPHER P. CURRIE,\1\ DIRECTOR, HOMELAND 
  SECURITY AND JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Currie. Thank you, Chairman Johnson and Ranking Member 
Carper and other Members that are here today. We appreciate the 
opportunity to be here today and testify.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Currie appears in the Appendix on 
page 77.
---------------------------------------------------------------------------
    Within the United States there are 16 critical 
infrastructure sectors, for example, water, transportation 
systems, agriculture, and, of course, energy. The energy sector 
ties all of these sectors together, and without it, the others 
just cannot function. This makes protecting it a national 
security priority. So I think the others on the panel have done 
a really good job of setting up the EMP and the solar weather 
threat. Both could cause power outages across large parts of 
the country for a long period of time.
    That threat was so great that Congress established a whole 
Commission on EMP in 2001, which issued reports in 2004 and 
2008, and had many recommendations.
    GAO is currently evaluating the Department of Homeland 
Security's efforts to address EMP threats and electromagnetic 
threats in general, and today I would like to share our 
preliminary findings in two areas: the first is the extent to 
which DHS has addressed the 2008 EMP Commission 
recommendations; and the second is DHS' efforts to coordinate 
with other Federal agencies and industry stakeholders to 
mitigate risks to the electric grid.
    So far, we have found that DHS has taken some actions to 
mitigate the threats to the grid. These include developing 
mitigation projects and planning for the consequences of an 
event like an EMP, among other things. So two quick examples of 
these actions are:
    DHS is developing an R&D prototype transformer that would 
allow utilities to replace critical large transformers within a 
week, as opposed to the months it could take now, and it is 
currently testing that.
    Also, for example, the Federal Emergency Management Agency 
(FEMA) is developing a specific Incident Annex to deal with a 
long-term power outage, and while this is not specific to 
electromagnetic threats, this plan would address one of the 
biggest side effects of an EMP or solar event.
    In regard to coordination, we have found so far that DHS 
has coordinated with stakeholders to address some but not all 
risks to the electric grid. Some of these actions address 
electromagnetic threats. For example, DHS participates in 
interagency working groups that are designed to prepare and 
respond to space weather events. However, our preliminary work 
shows that DHS has not fully coordinated with stakeholders in 
areas like sharing threat information, identifying key 
infrastructure assets, and identifying research priorities, 
just as examples.
    So, for example, within those areas, energy industry 
officials told us that they lack sufficient threat information 
to determine if they should take actions to mitigate against an 
EMP. They also said that this information would help them 
justify these investments to their management and shareholders. 
And this is similar to our past work and recommendations 
related to cyber threats. In that work, we found that Federal 
agencies' efforts to share information did not always meet 
industry expectations, in part because of restrictions on 
information that can be shared. And DHS has since taken steps 
to implement those recommendations in that area, including 
granting security clearances and establishing a secure 
mechanism to share cyber threat information.
    In another example, we have found that DHS and the 
Department of Energy have not identified the most critical 
energy substations and transformers on the grid. This was a key 
recommendation of the EMP Commission, and this information 
would help prioritize investments to mitigate against the 
largest vulnerabilities.
    There are a couple final and overarching points I would 
like to make based on our work.
    First, while DHS has taken some actions, as I have 
mentioned, there has been no integrated effort to address the 
EMP Commission recommendations. In fact, we have seen some 
confusion within DHS about who is responsible for taking lead 
on this.
    Second, although DHS is not required by law to implement 
the Commission's recommendations, many of the recommendations 
align with responsibilities that DHS and DOE already have for 
protecting critical infrastructure and coordinating these 
efforts, such as under the National Infrastructure Protection 
Plan. For example, DHS and DOE have not identified roles and 
responsibilities for addressing electromagnetic impacts to the 
grid.
    As we complete our review, we will continue to evaluate the 
extent that DHS has implemented the EMP Commission 
recommendations and determine where specific coordination 
efforts could be improved, and we expect to issue our final 
report later this year.
    This completes my prepared remarks, and I would be happy to 
answer any questions you have.
    Chairman Johnson. Thank you, Mr. Currie.
    Our final witness is Ms. Bridgette Bourge. Ms. Bourge is a 
senior principal for legislative affairs at the National Rural 
Electric Cooperative Association (NRECA), where she leads the 
work on homeland security policy issues. She previously served 
as a consultant to the Department of Homeland Security on 
critical infrastructure issues. Ms. Bourge.

TESTIMONY OF BRIDGETTE BOURGE,\1\ SENIOR PRINCIPAL, LEGISLATIVE 
    AFFAIRS, NATIONAL RURAL ELECTRIC COOPERATIVE ASSOCIATION

    Ms. Bourge. Thank you. It is an honor to be here to testify 
today on behalf of the industry about the threat of solar 
storms and electromagnetic pulses on the bulk power system.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Bourge appears in the Appendix on 
page 97.
---------------------------------------------------------------------------
    As the Chairman mentioned, I do work for the National Rural 
Electric Cooperative Association. I advocate for best security 
practices that recognize the reality of the threat environments 
on behalf of a service organization that serves over 900 not-
for-profit electric utilities providing reliable power to over 
42 million people in 47 States.
    As member-owned, not-for-profit utilities, electric 
cooperatives focus on providing reliable electricity at the 
lowest reasonable cost. Anything that undermines that mandate 
undermines our members. Our member owners bear every cost. 
There is never any debate over whether a proposed project 
benefits cooperative stakeholders or cooperative customers. 
They are one and the same.
    I am not going to get into defining EMPs or GMDs. I think 
we have gone into that quite a bit here. I do want to stress, 
though, that we are a little concerned that there is some 
misinformation out there that fails to reflect the reality and 
factual danger of either phenomenon. These two are entirely 
separate threats, both in nature and in execution, with 
different causations and impacts. Yet they are, nevertheless, 
regularly conflated as the same.
    GMDs are common, relatively common natural events that can 
result from a solar storm. We actually had a few weeks ago a 3-
day occurrence of GMDs at a G3 level. You saw no impact from 
the bulk power system. You felt nothing from that. We have 
standards and processes in place to address the GMDs at those 
levels.
    As you heard from Mr. McClelland, we are in the process of 
waiting on an additional set of standards that will help us 
plan for the 100-year event scenario. So industry does address 
the GMD. We are aware of that issue and highly engaged on that 
issue, and we are continuing to address that issue.
    Electromagnetic pulses from a nuclear detonation are a 
little different, from our perspective. They require a 
different technology solution. They also require different 
planning, different mitigation, different preparation. I would 
actually like to read from the EMP Commission here where it 
says, ``It is not practical to try to protect the entire 
electrical power system or even all high-value components from 
damage by an EMP event. There are too many components of too 
many different types, manufacturers, ages, and designs. The 
cost and time would be prohibitive. Widespread collapse of the 
electrical power system in the area affected by EMP is 
virtually inevitable after a broad geographic EMP attack, with 
even a modest number of unprotected components.''
    So basically the EMP Commission even had the same view of 
protecting the grid will not guarantee the grid stays up. So we 
have to look at this, separate the issues. A GMD is a solar 
storm. It is something we do work on, we do address.
    EMPs are something we also address through policy and 
planning, not so much through the technology solution, because 
we do not see it as something we can guarantee survival on. We 
do try to protect it, and we do want to look toward planning 
scenarios so that we can recover from it. When you hear people 
talk about spare transformers, that is an idea that we think is 
very valuable and should be looked at most certainly. And you 
see some bills actually over in the House proposing that type 
of concept, and the Department of Energy, I believe, just 
recently put out a request for information on how they might be 
able to do such a thing. That is an area of focus where 
industry thinks that we would be very beneficial to turn 
toward.
    We have to remember when you are conflating the EMPs and 
GMDs, you have the chance of impacting existing standards, 
existing processes, existing mitigation efforts. GMDs are 
something that impacts the electric grid. It is something that 
impacts communications systems. EMPs are something that impacts 
all critical infrastructure. If you have a microprocessor, more 
than likely you are going to feel an impact. You are going to 
have an impact on our hospitals, on our transportation, on our 
fuel lines. These are interdependent critical infrastructures. 
They rely on us, but we also rely on them. If we have no fuel, 
if we have no water to cool, we will not function.
    So when you say everyone else needs electricity to work, 
electricity needs others to work as well. So simply finding a 
way to harden a grid that will, per the EMP Commission, still 
likely come down, when no one else is hardened, when we still 
will fail because there are no protections anywhere else does 
not seem like the best focus of our energy and time. We want to 
focus on that recovery scenario for the low-likelihood, high-
impact events like an EMP, which we do see as distinctly 
different than the GMD.
    That is the conclusion of my testimony. If anyone has any 
questions, I would be happy to answer them.
    Chairman Johnson. Thank you, Ms. Bourge.
    I will start the questioning, but before I start the clock, 
I did a pretty good job of convincing all the panel members not 
to describe E1, E2, E3, and GMD, so nobody did. So I guess what 
I would like to do is I think Mr. McClelland might be the best 
person to, please just kind of walk us through really what we 
are talking about here, because it is, EMP is different from 
the GMD, although there are certainly similarities in terms of 
some of the effects on some of it. So if you would just kind of 
educate us on that, and then I will start asking questions.
    Mr. McClelland. Sure. Mr. Chairman, I will read, because I 
have summarized it very succinctly, and I think 
comprehensively. So within a paragraph, I think I can address 
it here at your request.
    Chairman Johnson. Thank you.
    Mr. McClelland. GMD and EMP events are generated either 
from naturally occurring or manmade causes. In the case of 
geomagnetic disturbances, or GMDs, solar magnetic disturbances 
periodically disrupt the Earth's magnetic field, which in turn 
can induce currents on the electric grid that can damage or 
destroy key transformers over a large geographic area.
    Regarding manmade events, EMPs can be generated by devices 
that range from small, portable, battery-powered units through 
missiles equipped with nuclear warheads. In the case of the 
former--the battery-powered units--the equipment is readily 
available that can generate localized high-energy bursts 
designed to disrupt, damage, or destroy electronics such as 
those found in control systems on the electric grid. The EMP 
generated during the detonation of a nuclear device is far more 
encompassing and generates three distinct effects: a short high 
energy radio-frequency-type burst called E1 that destroys 
electronics; a slightly longer burst that is similar to 
lightning termed E2; and a final effect termed E3 that is 
similar in character and effect to the GMD targeting the same 
equipment including key transformers. Any of these effects can 
cause voltage problems and instability on the electric grid, 
which can lead to prolonged wide-area blackouts.
    So the key distinction between the two, geomagnetic 
disturbances and we will go with the nuclear because it covers 
the 
range--the nuclear EMP is that nuclear EMP generates two other 
effects: E1, which damages and destroys electronics; E2, which 
is similar to lightning, and the common belief in the community 
is that E2 has been mitigated or is readily mitigated by the 
lightning practices of the utilities today; and then E3, which 
is a longer-term effect which generates those geomagnetically 
induced type currents that destroy key pieces of transformers.
    So if you mitigate against GMD, you have mitigated really 
against everything but E1, the E1 effect from a nuclear 
detonation.
    Chairman Johnson. Let me just ask the open question: Does 
anybody disagree with that basic description? Or would you want 
to tweak it in some way? Ambassador Woolsey.
    Mr. Woolsey. I do not disagree. Most of what I know about 
these issues I have learned from Joe McClelland. But I want to 
stress that the EMP Commission did not--repeat, not--conclude 
that it is futile to protect the grid. The Commission 
recommended protecting the grid in such a way that it would 
fail gracefully, essentially, so it could be quickly recovered. 
But the industry across the board has gotten very, very good at 
pointing the finger at other parts----
    Chairman Johnson. And, again, we will get into that 
discussion.
    Mr. Woolsey. All right.
    Chairman Johnson. Again, right now I just want to lay the 
predicate in terms of this is what we are talking about.
    Mr. Woolsey. Got it.
    Chairman Johnson. E1, E2, E3, EMP versus GMD, and GMD and 
EMP with the E3 that is a similar effect. OK. I just wanted to 
get--and I also did want to--you talked about a G3 level 
happening all the time. What would be the level of the 100-year 
event or the Carrington Effect? What is that on the scale? 
Anybody?
    Mr. McClelland. That is going to be like a K8, K9 effect, 
and we have not seen one. So we have not seen a 1921 level 
effect. We have seen two others, and they are very interesting. 
One is in 1989. We saw about a half of a 1921 event, and it 
collapsed the grid of Canada. The Quebec grid collapsed very 
quickly. We also saw a fraction of that event in South Africa 
in October 2003 that destroyed over 12 large bulk power system 
transformers. It was very small, so it did not collapse the 
grid, but it was off for a prolonged period of time, destroyed 
that critical equipment at a very low level.
    Chairman Johnson. OK. So you had the Carrington Effect, 
which was, what, 1859?
    Mr. McClelland. 1859.
    Chairman Johnson. And that in this G-scale would be a G8 or 
G9?
    Mr. McClelland. Well, I would say K9.
    Chairman Johnson. OK, K9. Again, not that this really means 
anything to anybody, but it just kind of gives order of 
magnitude. So you had the Carrington Effect, which was kind of 
once in a century, but that has been 150 years. Then we had the 
1921 event, what would that have been on that scale?
    Mr. McClelland. I have the nanoteslas, but as far as 
relating it to the K-factor, I am sorry, I would not be able to 
answer that question here.
    Chairman Johnson. Way more than a G3, though?
    Mr. McClelland. Yes.
    Chairman Johnson. How about on a scale of 1 to 10? I am 
just trying to get some sort of idea of the magnitude of these 
things, from a Carrington to what we are seeing, almost 
background noise, but this is happening all the time. And we 
have all seen disruptions to TV signals, satellite signals, 
that type of thing, but kind of the minor annoyances.
    I think it is also true that Lloyd's of London says that on 
average there is about $2 billion worth of damage from these G3 
types of effects annually.
    Again, so Carrington was massive; 1921 was not quite as 
massive as the Carrington Effect. Correct?
    Mr. McClelland. Right.
    Chairman Johnson. The next one was in Canada?
    Mr. McClelland. Yes, in 1989.
    Chairman Johnson. In 1989. Do you have that on a scale?
    Mr. McClelland. I do. I can pull it up for you. If the 1921 
event was 5,000 nanoteslas, the Canadian event was about 1,100 
or 1,200 nanoteslas, so about a fifth. I would say about a 
fifth.
    Chairman Johnson. It was a fifth of the 1921 event, and it 
shut down all of Canada's electrical grid?
    Mr. McClelland. It shut down Hydroelectric of Quebec, the 
entire Quebec grid, shut down in 93 seconds; 6 million 
customers were out of power for about 10 hours. The estimated 
cost, I have heard cost estimates of $1 to $2 billion, but very 
minor equipment damage. So they were able to restore very 
quickly, but still the cost was very significant.
    Chairman Johnson. But a fifth the size of the 1921 event, 
which smaller than or less intense than the Carrington Effect.
    Mr. McClelland. Right.
    Chairman Johnson. And then the last one was, you said, in 
South Africa?
    Mr. McClelland. Right. That was the South African event. 
Again, in orders of magnitude, that was probably about half to 
a quarter of the Canadian event. It was a very low level event, 
but it stayed on for a period of days. The grid did not 
collapse. It did not cause consumption, overconsumption, 
reactive power flow. So the grid stayed on. Equipment saw 
prolonged exposure to this event, and months later, over a 
period of months, 12 transformers were lost due to that event.
    Chairman Johnson. Then it was true that in 2012 there was a 
coronal discharge or a solar flare, whatever we want to call 
it, that was pretty massive. Dr. Garwin, can you comment on 
that?
    Mr. Garwin. No.
    Chairman Johnson. OK.
    Mr. Garwin. Some of these things are not really on an 
appropriate scale because, activity on the Sun is not 
necessarily reflected in a geomagnetic event on the Earth. It 
depends on the polarity of the plasma that is ejected. And many 
of the things that happen on the Sun are spectacular, but their 
coronal mass ejections go in different directions.
    Chairman Johnson. OK. I saw a satellite picture of us 
missing this by about 9 days. Anybody know anything about this 
and can comment on it? Ambassador Woolsey.
    Mr. Woolsey. I just got tipped from my friend who is the 
Chairman or the Staff Director of the EMP Commission, and he 
tells me that on July 23, 2012, there was a Carrington-level 
event. It missed us by 3 days.
    Mr. Garwin. That means it just went off in a different 
direction.
    Chairman Johnson. Correct, but had the Earth been in its--
had it affected the Earth, it is going to only--does it only 
affect the side facing the Earth?
    Mr. Garwin. No, the entire Earth, especially the polar 
regions, but even down into the mid-latitudes Carrington--the 
only long wires in those days were telegraph wires.
    Chairman Johnson. Right.
    Mr. Garwin. So no grid to bring down, no pipelines, but it 
did play havoc with telegraph wires, burned up some telegraph 
offices, and it would be much worse. It would collapse 
societies. But if the transformers are off, they are not 
damaged, and so the worst that would happen, if you take proper 
preparations, is that you would have to turn off transformers 
which have not been sufficiently mitigated. But the ones that 
have been mitigated or which do not have the connections that 
make them vulnerable--so-called Y connections instead are delta 
connections, which work just as well--those are immune to 
geomagnetic storms.
    Chairman Johnson. Go ahead.
    Mr. McClelland. I am sorry, Mr. Chairman. To answer your 
question, because I do have the numbers here, the July 2012 
event was about a quarter or about 25 percent of the size of 
the 1921 event. The 1989 event that collapsed the Quebec grid 
was about a tenth of the size of the 1921 event. And the event 
is called ``the Halloween Storm of 2003 for South Africa.'' 
That was about a 50th of the size of the 1921 event. And I do 
have those numbers and can provide that information.
    Chairman Johnson. But, again, the granddaddy of them all 
was the Carrington in terms of our history that we have 
witnessed. Do you have any kind of relationship to that?
    Mr. McClelland. I am sorry. I do not have that information.
    Chairman Johnson. But bigger than 1921?
    Mr. McClelland. Yes, bigger.
    Chairman Johnson. Ambassador Woolsey.
    Mr. Woolsey. Joe or Dick could correct me if I am wrong, 
but 1921 affected, I think, North America only; whereas, the 
Carrington Event of 1859 affected the entire world.
    Chairman Johnson. OK. Ms. Bourge, again you are making a 
distinction between EMP and GMD and to a certain extent 
implying that, boy, there is just not much we can do about 
EMPs, so, you know----
    Ms. Bourge. Well, I certainly do not mean to be implying 
there is not much we can do about EMPs. I think planning and 
talking at a national level across the critical infrastructure 
in identifying interdependencies, figuring out where government 
can help industry and where industry can help industry and what 
are the most logical ways to go about addressing this low-
likelihood, high-impact situation, as we would with many 
others. Whenever you are talking about a catastrophic 
situation, sometimes protection and mitigation has to be looked 
at, but so does recovery. And you have to balance how much 
effort should be put on ahead of time and how much effort 
should be put on that recovery situation instead.
    Chairman Johnson. Dr. Garwin, you have made four 
recommendations. Have you ever seen any kind of cost estimate 
of what it would cost to implement your recommendations?
    Mr. Garwin. The EMP Commission has those $2 billion. They 
do not exactly align with these recommendations. But the 
neutral current-blocking device which solves the problem on the 
EHB, the bulk transmission system, those might cost about 
$100,000 per transformer. That is cheap compared with the 
several million dollars per transformer, and it is very cheap 
compared with the damages that would be avoided.
    Chairman Johnson. Do you know how many transformers would 
have to be protected?
    Mr. Garwin. A couple hundred in a priority----
    Chairman Johnson. Literally, $100,000 times a couple 
hundred?
    Mr. Garwin. Yes, that is right. You know, $100,000, that 
is----
    Chairman Johnson. That does not even show up in the Federal 
budget. That is pocket change.
    Mr. Garwin. Right. But we do not have the census. We do not 
have from the transmission companies the details as to which 
transformers are most vulnerable, so we do not know where to 
start.
    Chairman Johnson. So we have not even done that, which 200 
transformers should have $100,000 worth of protection?
    Mr. Garwin. Yes, and there are some that will not help 
because they are autotransformers, and so you cannot separate 
their ground----
    Chairman Johnson. Mr. McClelland, you----
    Mr. McClelland. I am sorry. I guess it really does depend--
the substation number does depend on the outcome that one is 
pursuing. If it is grid stability and continuity, then it is a 
small, relatively small number of substations. So 55,000 
critical substations, as Dr. Garwin has indicated, would number 
in the hundreds. If, however, it is to preserve the integrity 
of the Department of Defense or the offsite power supply to 
nuclear power stations, then criticality of load becomes an 
important issue. In that case, you may escalate from a few 
hundred to a thousand or more substations.
    In addition, it is important to state that Dr. Garwin I 
think focused on just one aspect, geomagnetic disturbance. 
Electromagnetic pulse requires E1 hardening, too, and----
    Chairman Johnson. I understand. So the point being is let 
us not make perfect the enemy of the good. Let us not sit back 
and go, ``Well, if you cannot protect everything, protect 
nothing.'' Let us start protecting things.
    Mr. McClelland. Right.
    Chairman Johnson. Literally, $100,000 times 200, was it? 
What is the math on that? I made a mistake earlier. I need a 
calculator. It is not much.
    Somebody described the Commission is established, starting 
in 2004 when we declassified what we knew dating back to the 
1960s, right, when we were doing nuclear testing and we 
realized, whoa, something pretty strange is happening or 
something pretty damaging, and we classified that. We 
declassified in 2004, correct? And we set up a Commission--this 
is for Dr. Garwin.
    Mr. Garwin. No. It was long before. It was recognized in 
1962 by a high-altitude nuclear test. It was explained a couple 
years later, never was classified. The only thing that is 
classified is the details of the construction of the nuclear 
weapons that caused this.
    Chairman Johnson. So it was just ignored. It was something 
pretty scary, and we did not want to acknowledge it, so we put 
our head in the sand, and our head is still in the sand, by and 
large.
    Mr. Garwin. Well, people tried and, of course----
    Chairman Johnson. I am not blaming you. I am just saying 
that is the position----
    Mr. Garwin [continuing]. And the EMP Commission has been 
trying, but here is what the EMP Commission said, if you look 
on page 6 of my submittal for the record. So E1, this very 
sharp pulse that has no counterpart in a natural phenomenon, 
does not affect people, no direct harm to humans or animals, 
gasoline-fueled automobiles, 3 stopped running out of 37, but 
all restarted without incident, and then, in particular, the 
electrical grid.
    But Ms. Bourge is right. The country runs on other than 
electricity, and so you have to protect more than the 
electrical grid. But our subject is the electrical grid, and to 
protect the electrical grid even against E1 is not the big 
problem that protecting all of society is.
    So electromagnetic relays that send current and voltage 
were immune to E1, and the electronic protective relays, they 
were the toughest devices tested, and they could be even 
tougher, according to the EMP Commission, with minor filtering 
on them.
    So it is something that is doable, is to protect the bulk 
power system not only against the geomagnetic storms and 
against E3 from high-altitude nuclear explosions, but also 
against E1. That would not solve the problem of society because 
we depend upon a lot of other things. And if all of our 
furnaces and water pumps and so on go out because of the 
personal computer type things that are used in them, that is a 
bad day.
    Chairman Johnson. But we can protect ourselves against 
something like the Carrington Effect, the 1921 effect, and we 
can do that for a relatively low cost. And, again, it is 
something that has a 10 to 12 percent probability of happening 
every decade, and we escaped something massive by a couple days 
in 2012. Am I stating that correctly?
    Mr. McClelland. Yes.
    Mr. Woolsey. Yes.
    [Witnesses nod in agreement.]
    Chairman Johnson. So, again, let us go back to 2008, and I 
want to start with you, Mr. Currie. I am going to go through 
Recommendations A through O of the 2008 EMP Commission, and I 
really want just a simple yes or no on these. Have we done 
this? OK? Do we understand the system network level 
vulnerabilities, including cascading effects? Do we understand 
that? Has DHS done that?
    Mr. Currie. No, DHS has not done that.
    Chairman Johnson. So we do not even understand the system 
or network level vulnerabilities, including cascading effects?
    Mr. Currie. Not for geomagnetic threats. No, DHS has not 
done that.
    Chairman Johnson. OK. Well, that was the first 
recommendation. So, again, this is in 2008, and now it is 2015, 
and I can actually do that math in my head. That is 7 years. 
OK.
    B, Evaluate and implement quick fixes.
    Mr. Currie. They are evaluating some quick fixes, like the 
project I mentioned, the transformer quick fix project, and 
that is----
    Chairman Johnson. So do you think seven--I am not beating 
up on you. Seven years later, that is not exactly a quick 
evaluation of a quick fix, is it?
    Mr. Currie. Right.
    Chairman Johnson. So we still have not done that. We are 
kind of evaluating it. Seven years to evaluate a quick fix that 
could cost minimal dollars, that would go a long way toward 
protecting the absolute critical substations and transformers 
of an effect that we know will happen again with 100 percent 
certainty, right, Dr. Garwin? We will be hit by one of these 
solar flares with 100 percent certainty?
    Mr. Garwin. Right.
    Chairman Johnson. Sometime in the future.
    Mr. Garwin. Right.
    Chairman Johnson. We have known about this publicly since 
2004. In 2008, these recommendations. Seven years later, we 
have virtually done nothing in terms of some quick fixes that 
would cost $100,000 per transformer--when, by the way, we spent 
$800 billion in 2009 and 2010 on a stimulus package looking for 
shovel-ready projects. This would have been a pretty good 
shovel-ready project, wouldn't it?
    Mr. Garwin. Well, the criterion was too severe because it 
takes longer than a year to go from something which is there 
actually to get it running. You have all that planning and 
budgeting, and it should have lasted longer, and we should have 
fixed our infrastructure more widely.
    Mr. Currie. Senator Johnson, can I mention one thing?
    Chairman Johnson. Sure, Mr. Currie.
    Mr. Currie. One of the things that makes it hard--and this 
has made our work really hard--is there is no one at DHS that 
sort of line by line tracks what efforts coincide with these 
recommendations.
    Chairman Johnson. No, I will stipulate the dysfunction with 
government, OK? And, again, we are describing dysfunction. This 
is a serious threat; 100 percent certainty this will happen, 
and we have done nothing, having known about this publicly 
since 2004, we have done nothing. We have spent minimal amounts 
of dollars on a quick fix to protect a big chunk of our iron 
structure. Not perfect, not protecting everything, but just 
doing the bare minimum, we have done nothing.
    Let me go on. C, have we developed national and regional 
restoration plans? Yes or no.
    Mr. Currie. According to our work, DHS has not done that. 
There may have been discussions about that in the Sector 
Coordinating Council.
    Chairman Johnson. So 7 years later, we have not developed 
national and regional restoration plans.
    By the way, if anybody wants to challenge this, pipe in. We 
have plenty of time. I am the only questioner, which is kind of 
nice.
    Ms. Bourge. Chairman Johnson----
    Chairman Johnson. I wish every member of the Committee were 
here to hear this, though. It is unfortunate they are not. But, 
again, if anybody wants to challenge this, step in. Do you want 
to say--have we developed a national or regional restoration 
plan?
    Ms. Bourge. Actually, I want to go one back from there. I 
want to talk about whether or not we have done nothing, because 
I think the issue got a little conflated here on the EMP versus 
GMD. Industry has done things on GMDs. We have standards 
implemented. We are in the process of pending approval from 
FERC on a second set of standards to build toward the 100-year 
event.
    Chairman Johnson. Have we installed anything? Have we 
actually protected anything? So industry, great, God bless you, 
I love industry. So industry has done some studying. The 
government has not.
    Ms. Bourge. I could not say what DHS has done specifically 
or not.
    Chairman Johnson. That is why we have GAO here, and he said 
government has not done anything. So God bless industry. I am 
glad you are moving forward. We should start installing some of 
these things.
    D, have we assured the availability of replacement 
equipment. Have we done that?
    Mr. Currie. No. It is being researched, but there is no 
assurance.
    Chairman Johnson. Ah, research. Love research. Some of 
these transformers are 2 years out in terms of lead time, 
correct?
    Mr. Woolsey. Yes.
    Chairman Johnson. Two years out.
    Mr. Woolsey. And the last time I looked, Mr. Chairman, they 
were made only in--the big ones, only in South Korea and 
Germany.
    Chairman Johnson. So anybody with a brain in their head 
looking at this would go, what we ought to do--again, we are 
going to spend $800 billion looking for shovel-ready projects 
and shovel about $2 billion into some replacement transformers 
and just keeping the spare parts. Wouldn't that have been a 
rational response, take $2 billion and buy a bunch of 
transformers and store them so that we can restore power from 
that----
    Mr. Woolsey. Some transformers are not fungible. You cannot 
just take one and put--but people here who know more about 
that----
    Chairman Johnson. That would, of course, require some 
research and some planning, which we did not do that either. So 
let me keep going on.
    Mr. Garwin. As they say, the good is the enemy of----
    Chairman Johnson. No. The perfect is the enemy of the good, 
I know. And just government does not work, and I think this is 
pretty obvious.
    Mr. Garwin. You can make replacement transformers that are 
modular and stack them up, and that is a good way to do it. But 
it is very difficult to get people to agree on a particular 
course. And in industry and commerce, you have competition, so 
people buy what is most effective and what----
    Chairman Johnson. Right, and, of course, the point of this 
hearing is to lay bare how ridiculous it is that we have done 
nothing, and we have let the perfect be the enemy of the good, 
and we have allowed governmental dysfunction to prevent us from 
even doing the basic first little quick fixes to begin 
protecting our critical infrastructure. That is the purpose of 
this hearing.
    Let me go on. E, assure availability of critical 
communications channels. Have we done that, Mr. Currie?
    Mr. Currie. So we focus on the energy sector, and one thing 
that was not mentioned is that the EMP Commission report 
actually covered other sectors, like telecommunications and 
banking and finance and raised threats in those areas, too. I 
do not have knowledge of the communications area.
    Chairman Johnson. Well, again, and I agree with your 
assessment in your testimony, too. We have 16 critical 
infrastructures, and they all depend on energy. So, again, we 
are trying to prioritize what you are trying to address--again, 
not going to solve all of them. In other words, do nothing, so 
try and start solving something. The top priority would be 
protect our electrical infrastructure, correct?
    F, expand and extend emergency power supplies. Have we done 
that?
    Mr. Currie. That is not something we have looked at as DHS 
because they would not be responsible.
    Chairman Johnson. I will take that as a no.
    Extend black start capability.
    Mr. Currie. It is something that they have looked at as 
their research and development for installing these 
transformers that can be easily replaced, but I am not aware 
of----
    Chairman Johnson. So looked at it. Then that would be what 
we would have to do. Pre-purchasing some of these replacement 
transformers is really what we are talking about, right? And 
getting those in a position so that we do not have to rely on 
transportation to put them in service. Mr. McClelland.
    Mr. McClelland. If you do not mind, Mr. Chairman, I would 
like to revisit just a couple----
    Chairman Johnson. Sure.
    Mr. McClelland. Not from the DHS perspective, but from 
FERC's perspective. Regarding item No. 1, identify critical 
facilities, the Commission did finish comprehensive network 
modeling, has identified the most critical substations and 
nodes on the electric power grid, conveyed that information to 
the industry, and then offered assistance. And this is in 
conjunction with DOE and DHS, so they were our partners on 
this. We did collaborate, so we have identified those critical 
nodes, met with the subject matter experts who own and operate 
those critical nodes, and offered assistance, joint assistance 
for cybersecurity with DHS and also assistance on both GMD and 
EMP mitigation procedures and techniques.
    We have also collaborated with our partners at the 
Department of Defense (DOD) to identify mission-critical 
facilities and essentially perform the same function for our 
partners at DOD.
    So work has been done. I cannot speak to independent 
efforts by DHS. The work was not specifically driven by GMD and 
EMP. It was driven in the threat context and used for both 
cyber GMD and EMP.
    On the second item, I do not want to overrepresent it. I 
think it is important to say that the NERC standards are a 
baseline approach, so they are a foundational approach. They 
are certainly not best practices, and they certainly would not 
represent best practices that the industry could bring to bear. 
However, NERC did put operating procedures in place so that 
when they receive alerts and bulletins from the National 
Oceanic and Atmospheric Administration (NOAA) folks regarding 
space weather events, they are given an alert, and they can 
take operational action. That is just operational action, 
though. It does depend on human beings to actuate procedures in 
order to protect the system.
    There is a second phase of that standard. The second phase 
of that standard regards a self-assessment by the industry to 
determine whether or not they need to take protective measures, 
automatic protective measures against GMD. And the Commission 
has questioned some of the aspects of that standard in regards 
to the 1-in-100-year event and the baseline that NERC submitted 
for the Commission's review.
    Chairman Johnson. OK. So that is good news. I would have 
assumed we would have been looking at this. I am sure there is, 
with all the paper being produced around here, there are some 
studies. We need to start implementing some protections, 
though, and prioritizing those things. Ambassador Woolsey.
    Mr. Woolsey. Mr. Chairman, just one illustration. It takes 
NERC sometimes quite a while to come up with these standards. 
In 2003, after the Great Northeast Blackout in Canada--and it 
started, I think, in Cleveland, with a tree branch touching a 
wire--NERC undertook a Vegetation Management Plan. It took them 
slightly over 10 years, until 2013, to come up with that. The 
United States was engaged in World War II for 3 years and 8 
months, so that is essentially three World War II's that it 
took NERC to figure out what to do with vegetation. I do not 
know how long it took them to handle a much more complex 
problem, like, say, squirrels.
    Ms. Bourge. Mr. Chairman, if I could add one thing----
    Chairman Johnson. Squirrels are a 100 percent probability 
as well. [Laughter.]
    Ms. Bourge. The NERC process has been changing and growing 
and establishing itself over the years, and that was more in 
its infancy. At this point we have gotten better with 
standards. I am not going to say we are perfect, but we have 
gotten better in the process of getting them done, and for an 
example, we had a request from FERC to create physical security 
standards last year, and we did that, I believe, in 82 days.
    Chairman Johnson. Again, this is a different example, but I 
know the Centers for Disease Control (CDC) has established 
standards in case the Ebola virus ever came to the United 
States, and the first time it happened, we had some young 
nurses contract Ebola because--again, you can write up 
standards, but if you do not test it, if you do not actually 
have the protective gown and equipment in place, the standards, 
the piece of paper does nothing.
    Let me just continue, because I just want to--and, again, 
anybody can answer this. If it is yes or no or, maybe or 
partially, let me know.
    Prioritize and protect critical nodes. Have we prioritized 
and protected critical notes? Mr. McClelland.
    Mr. McClelland. The studies that FERC has performed do 
prioritize the critical nodes for the industry.
    Chairman Johnson. So we prioritized but no protection.
    Mr. McClelland. No, the protection is voluntary. There is 
no EMP standard, and the Commission has said on numerous 
occasions that for national security the standards are not 
adequate.
    Chairman Johnson. OK. So, listen, I am somebody who hates 
overreaching government, overregulation. But let us face it: 
Voluntary is not working so good. From my standpoint, this is 
something that needs to be addressed, and if government has to 
pay for it, again, that is why I go back to the old stimulus, 
$800 billion, we could have done a lot of protection with just 
a small little fraction of that, and it is just a shame, it is 
just unconscionable we did not.
    Mr. McClelland. I can just add to that quickly. We have 
seen just a handful of utilities move forward with EMP 
mitigation. One or two have been very proactive. The cost for 
both GMD and EMP mitigation at those stations is relatively 
small. It has been 1 to 2 percent--for EMP mitigation included.
    Chairman Johnson. When the administration in 2009 was 
looking for those shovel-ready projects, did NERC ever raise 
its hand and say, ``We have one here''?
    Mr. McClelland. I do not know.
    Chairman Johnson. I wish they would have.
    Mr. Woolsey. Not to my knowledge, Mr. Chairman.
    Mr. Garwin. There is a generic problem in the government, 
as evidenced by our late friend Jim Schlesinger when he was 
Secretary of Defense. They needed a fiscal stimulus, and 
Schlesinger came up with $5 billion to be spent. He said, ``We 
do not need it for defense, but I am the only one in the 
government, the only Cabinet Secretary, allowed to have 
contingency plans for spending money we do not have.''
    And so we spent that $5 billion on defense. Schlesinger 
said we did not need it, but it was a good thing to do, 
according to the administration and the Congress. We ought to 
have contingency plans lined up for things that we do not have 
money to do, and you have to be able to say no to them to stay 
within the budget.
    Chairman Johnson. Well, again, the purpose of this hearing 
is to raise this issue, this contingency and a real high--this 
is not a contingency. This is an imperative. This is a top 
priority from my standpoint.
    I, Expand and assure intelligent islanding capability. Dr. 
Garwin, that was part of your testimony. Have we done anything 
there?
    Mr. Garwin. I do not know.
    Chairman Johnson. Mr. McClelland.
    Mr. McClelland. I would say not, no.
    Chairman Johnson. OK. Assure protection of high-value 
generation assets.
    [No response.]
    No? Correct? I guess we will just assume no unless somebody 
wants to--OK.
    Assure protection of high-value transmissions assets.
    [No response.]
    No. Assure sufficient numbers of adequately trained 
recovery personnel. Have we done that one?
    [No response.]
    No. Simulate, train, exercise, and test the recovery plan. 
Have we done that?
    [No response.]
    No, we have not done that.
    Develop and deploy system test standards and equipment.
    [No response.]
    Have not done that.
    The final one, you can all breathe easy now, establish 
installation standards.
    [No response.]
    So this is pretty remarkable. From 2008, we had all these 
recommendations, seems like pretty common-sense 
recommendations, things that responsible individuals would have 
hopped right on and said, ``This is a problem, this is a 
threat, this needs to be addressed, this is a priority.'' And 
we have virtually done very little. We have done some. We have 
done some studies. We need to start using those studies.
    We are, by the way, going to be introducing a piece of 
legislation--and I have it here somewhere. Oh, I know. This 
passed in the House. One of the reasons we are holding this 
hearing now is I wanted the House to move first. It is called 
the ``Critical Infrastructure Protection Act.'' To me, this is 
just bare minimum. And it was amazing to me. Ambassador 
Woolsey, can you describe the problems we had even passing this 
in the House? It is going to require DHS to prepare a strategy 
to protect critical infrastructure against electromagnetic 
threats.
    Mr. Woolsey. I think this is the one that go through the 
House and was stopped in the Senate--Peter Pry has followed the 
legislation on this more closely, if we can ask him, former 
Chief of Staff of----
    Chairman Johnson. Sure. Why don't you come forward? I will 
let you provide the information without being sworn in.
    Mr. Woolsey. Progress, particularly in the House, of CIPA.
    Mr. Pry. Well, it was passed in the House, but like in the 
last week of the last Congress. It passed unanimously, as a 
matter of fact, but we just ran out of time. I think the bills 
you are thinking about are the SHIELD Act and the GRID Act 
which were held up for years in the House Energy and Commerce 
Committee. One of them, the GRID Act, did pass the House 
unanimously in 2010, and it came over to the Senate. But one 
Senator anonymously put a hold on the bill, and then it died. 
And that is the closest we came.
    Chairman Johnson. I actually was going to get to the SHIELD 
and GRID Acts. Right now we are just talking about CIPA, 
because I think the House--is it Homeland Security?--has 
actually reported out of Committee, and hopefully the House 
will pass it. And I want to bring this up and report it out of 
our Committee as well, and it is one of the reasons I held this 
hearing, was to get Committee support for just a bare minimum. 
Again, this is sort of a study as well. But we need to move 
past studies as quickly as possible and develop a strategy and 
start implementing it real quick. And I think some of these 
things we are talking about here, the $100,000 for some of 
these critical transformers, I do not think we need a strategy 
or a study. I think we should just do it, quite honestly. I 
will amend this bill to authorize the dollars to do just that.
    Mr. Garwin. One problem is that some of these remedies are 
so cheap, so that is the reproduction cost. But the design, the 
test, that costs really a lot of money, and then you put it 
into production. But you have to decide what it is you put into 
production. So that is why there has not been a lot of supply-
industry interest in this, because the market is not all that 
big.
    Chairman Johnson. Mr. Currie, do you want a quick----
    Mr. Currie. Yes, sir. On the cost issue, one of the things 
that we are looking at--when we talk about this, we tend to 
talk about just replacing existing equipment now. Another 
option that is easier and cheaper is, as you redesign systems, 
as they need natural replacement, that you consider hardening 
in this, too, which can be cheaper and easier to do as well.
    Chairman Johnson. That is fine. But, again, that is 
replacing. That is further out in the future. Let us take a 
look at what we have now. Let us address that. Let us offer 
some protection now.
    I think I will yield back my time remaining, my 7 minutes 
here. [Laughter.]
    Senator Carper. I will say you have made the most of it.
    Chairman Johnson. I have it right here. It says all 7 
minutes, so I have not even begun.
    I will say I wish we have had really good attendance at 
these hearings, and this is probably the least attended 
hearing, and it is unfortunate. I will ask----
    Senator Carper. They are all waiting in the anteroom until 
you finish.
    Chairman Johnson. I will ask that you review what has 
already been stated here, Senator Carper. This is unbelievable. 
It is just unbelievable. So if you have an opening statement, I 
am happy to have you make it now. But I really want you to 
review the testimony, and I want you to review the initial 
questioning here, and what we have not done is pretty jaw-
dropping and how little it is going to cost to just offer some 
basic protection, this is something we need to prioritize. We 
need to get moving on this now. But why don't you make your 
opening statement? Then we will continue on with questions.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. OK. Thanks. I apologize to our witnesses. 
First, my train was running about an hour and a half late. That 
is enough of a trouble. And the Northeast corridor was shut 
down for a while. And I got here, and I got distracted on 
another big issue that we are facing in the Senate today. But, 
Mr. Chairman, thanks very much for holding this hearing, and 
thanks to our witnesses as well for joining us.
    Threats to the homeland have evolved, as we all know, 
considerably over the last 15 years. In the months after 9/11, 
the most pressing threat to our homeland came from al-Qaeda 
terrorists planning attacks from remote caves in Afghanistan. 
Today the terror threat has become far more diverse.
    Some terror groups are still seeking sophisticated attacks 
against high-profile targets. Other groups, such as the Islamic 
State of Iraq and Syria (ISIS), are attempting to inspire 
extremists all over the world--including right here in the 
United States--to carry out simple attacks within their own 
communities, sometimes lethal attacks.
    We are also being attacked daily in cyberspace. In many 
ways, we are dealing with an epidemic of online theft and 
fraud. This epidemic is growing at an alarming rate and touches 
many of the people in this room, including on this side of the 
dais, as attacks become more sophisticated and more disruptive.
    And the challenges we faced with the recent Ebola outbreak 
and our ongoing efforts to counter the spread of avian 
influenza remind us that threats to our homeland are not just 
manmade. To address these evolving threats, we must always look 
to stay at least one step ahead of the bad guys or, in some 
cases, Mother Nature.
    At the same time, we have to reluctantly accept the reality 
that our Nation cannot protect against every threat, or 
potential threat, out there. Though we should always strive for 
perfection, we simply do not have the resources to achieve 100 
percent security all of the time. I know that, and I think we 
all recognize that. That is why it is so critical that we 
prioritize our homeland defenses. We must focus on those 
threats that our experience and intelligence tell us are most 
likely to occur and would have the gravest effects if, God 
forbid, they should become a reality.
    Today's hearing gives us an opportunity to assess two 
different potential threats to our electrical grid: man-made 
electromagnetic pulses, and geomagnetic disturbances caused by 
space weather.
    Each of these threats poses some degree of risk to our 
communities. That much is clear. Our job, however, is to assess 
that risk and figure out where these threats rank in the 
spectrum of everything else that our country faces. For 
example, we must determine how likely electro-and geomagnetic 
threats are to occur given our existing preparations and 
deterrents. And if they were to occur, how would they impact 
our homeland?
    The answers to these basic questions become all the more 
important and urgent amid the horrific reminders of the 
existing challenges we already do face from domestic terrorism 
and homegrown violent extremism in our own communities--attacks 
like those that occurred recently in Chattanooga and in 
Charleston.
    I hope today we can make some progress on this front and 
that our witnesses can provide us with a clear-eyed assessment 
of these threats. I look forward to questioning, but I am going 
to yield on my questions to Senator Ernst and Senator Ayotte 
and then maybe pick up the chance to ask my own questions in a 
few minutes.
    Thank you.
    Chairman Johnson. Thank you, Senator Carper. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman, and thank you, 
Ranking Member Carper.
    I would like to start, of course, with a discussion. I know 
the DOD was brought up earlier--and, first, I apologize. I want 
to thank all of you for being here today as well. I know many 
of us are dashing from meeting to meeting. But the DOD was 
brought up as far as our military is concerned, so, Director 
Woolsey, I would like to direct this to you first. I am 
interested in your thoughts on the potential impact of whether 
it is a natural or manmade EMP on our military capabilities, 
and if you could I guess detail or general observation, either, 
on where we are most vulnerable and how we should prioritize 
our efforts to harden these areas in our military and mitigate 
some of the threats that have been discussed here today.
    Mr. Woolsey. Well, 99 percent of--maybe it is like 97 
percent of the military are on the grid. That is where they get 
their power.
    Senator Ernst. Correct.
    Mr. Woolsey. I think in California there is one hot water 
steam facility, but that is it. So since we have 16 critical 
infrastructure and they all in one way or another depend on 
electricity, although electricity depends on them--they are 
interacting. But if the grid goes down, there is no special 
arrangement for the military. They are hungry and thirsty just 
like everybody else. And so in a real crisis one might look to 
the National Guard or whatever to maintain order. They are 
going to be worried about their families starving and not 
having water just like everybody else.
    So we have a very fundamental problem that the 
infrastructure at least in this country is essentially 
completely integrated, and one good thing is that Defense often 
has less difficulty making decisions and moving out, and 
sometimes they have a bit of extra money, so sometimes if you 
have a cooperative arrangement between Defense and other parts 
of the government, and particularly on something like this, 
Defense could kind of take the lead, particularly in areas like 
the corridor in the middle of Texas, which has several major 
military bases on it as well as several cities. And it would be 
a way to move out relatively quickly, perhaps, on getting some 
of these changes to the transformers and the rest that we have 
been talking about here.
    Senator Ernst. So you would say they would be a priority; 
they would need to be a priority.
    Mr. Woolsey. Absolutely, but, I mean, hospitals are going 
to be a priority because they will not have electricity, et 
cetera, et cetera. The military would certainly be front and 
center.
    Senator Ernst. Certainly. And do you believe that we could 
adequately protect our installations here? What about post 
bases that we have overseas?
    Mr. Woolsey. Well, there are different threats, both for 
geomagnetic--except for the really huge Carrington Effect 1859 
event, the events like even the railroad one of 1921 occur only 
over part of the Earth. So if something like that hit us, 
unless it was a gigantic Carrington event, it might well not 
hit our bases in other parts of the world. And if they were 
hit, then they might not be in the United States.
    But whether it is in Britain or Germany or here, we cannot 
assume that our military is going to have electricity and power 
and function any different really than the rest of society. 
They are going to depend on British transformers in Britain.
    Senator Ernst. Based on those host countries.
    Mr. Woolsey. Yes, I am sure they have generators and fuel 
that will last for 2 or 3 days or something like that, like a 
lot of businesses do. But we are used to planning for weather-
caused outages, which will last 2, 3, or 4, maximum 4 or 5, let 
us say, days. And that is not what this would be. This would be 
an outage for a very long time.
    Senator Ernst. OK. Mr. McClelland, I think you had some 
information.
    Mr. McClelland. I do. In 2008--and, actually, Mr. Woolsey 
was a part of this initiative. It was the Defense Science Board 
Task Force that wrote a report in February 2008 called ``More 
Fight, Less Fuel.'' The primary objective of that task force, 
as I remember, was to evaluate battlefield needs and dependency 
on fuel. They inadvertently found, however, they came up with 
two primary determinations. The second was very serious and was 
a surprise, and I would just like to read an excerpt from the 
memorandum from Dr. Schlesinger.
    Senator Ernst. Please.
    Mr. McClelland. He said, ``The task force concluded that 
DOD has two primary energy challenges,'' and this is the 
second: ``Military installations are almost completely 
dependent on a fragile and vulnerable commercial power grid, 
placing critical military and homeland defense missions at an 
unacceptable risk of extended outages.''
    And so that report went on then to detail the findings as 
well as recommendations to help correct that circumstance.
    Senator Ernst. So in your assessment then, it would be 
important that not only are we ensuring our troops are prepared 
for war, but also that they would be prepared in situations 
like this to make sure we can eventually step up into military 
operations.
    Mr. McClelland. Absolutely.
    Senator Ernst. OK. Thank you very much. I have very little 
time remaining, but I do want to thank all of you for 
participating today.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator. I will use your time, 
because we have not adequately described this.
    Ambassador Woolsey, you said ``a very long time.'' Lay out 
exactly what would happen in a massive GMD or an EMP. Lay it 
out. Describe what this is going to look like. This is not a 2-
week or a 3-week power outage. Talk about the electrical grid 
going down and everything shuts down.
    Mr. Woolsey. Well, I will take a quick stab at it and then 
lateral it to Joe and Dick, if they want to add, because they 
both know a great deal about this issue--more than I, really.
    You have the short wavelength effects that operate line of 
sight, so if you----
    Mr. Garwin. Short time.
    Mr. Woolsey. Short time.
    Chairman Johnson. I really do not want to impinge too much 
on Senator Ayotte's time here. Kind of get by the technical 
aspects to now the grid is down.
    Mr. Woolsey. All right.
    Chairman Johnson. And just describe what happens to society 
when the grid is down for--you said ``a very long time.'' We 
are talking a year or two, because we cannot get these 
transformers.
    Mr. Woolsey. It is briefly dealt with in the Commission 
report of 2008, and there are essentially two estimates on how 
many people would die from hunger, from starvation, from lack 
of water, and from social disruption. One estimate is that 
within a year or so, two-thirds of the United States population 
would die. The other estimate is that within a year or so, 90 
percent of the U.S. population would die. We are talking about 
total devastation. We are not talking about just a regular 
catastrophe.
    Chairman Johnson. I think that made the point. Senator 
Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Chairman.
    Ambassador, you certainly made the point, which brings me 
to my question. I serve on the Armed Services Committee as 
well, and in February, our Director of National Intelligence 
(DNI) and the Director of the Defense Intelligence Agency (DIA) 
both testified before the Senate Armed Services Committee 
regarding worldwide threats. It is our annual worldwide threats 
hearing. And this was obviously intended to be a comprehensive 
assessment, yet neither of them even mentioned the EMP threat 
in their lengthy written testimony provided to the Committee or 
in the oral testimony.
    So, Ambassador Woolsey, what explains this notable silence? 
If you look at collectively your tremendous experience in so 
many key positions in our government, how would you assess our 
awareness about this threat? And do you worry that there is a 
gap in terms of the intelligence community's (IC) and our 
overall focus on this devastating threat?
    Mr. Woolsey. Senator, it is a great question, and it is one 
of the things that perplexes everybody who looks at this. How 
could this be such a terrible threat and nobody has paid 
attention to it for quite a while, sometimes even in DIA and 
DNI testimony? I think there are two things going on.
    First of all, all parts of government and individuals are 
strapped for cash these days, and so to stick one's neck out in 
a bureaucratic situation in which you say, ``I understand that. 
That is my agency's responsibility. We will take charge, and 
here we go,'' you may find that it is being taken out of your 
hide. And so you do not have any real prospect to get added 
resources to do something, even if the resources are a couple 
of billion dollars, very small in these terms. So that is, I 
think, one thing that is going on.
    Another is that it has enough of a technological component 
that people tend to think of it as science fiction. I gave a 
speech to a group of very distinguished scientists, and one 
came up afterwards and said, ``Come on, Woolsey. You cannot 
mean this. Newt Gingrich writes novels about this.'' I said, 
``Well, Tolstoy wrote a novel about the war in Europe in 
Napoleonic times. It did not mean it did not happen.''
    But people get into the mode of thinking that this is so 
horrible if it goes the way it might--and there are books, 
there are good sort of dystopian books--one called ``One Second 
After''--about this, and so people get into not wanting to 
think about it, not wanting to worry about it because it is too 
terrible.
    I think that those two phenomena--and, finally, we kind of 
first knew about this--and, Dick, correct me if I am wrong--as 
a result of the atmospheric or high-altitude nuclear test just 
before the Atmospheric Test Ban Treaty came into effect, we and 
the Russians. And we dealt with the problem from the point of 
view of protecting the Strategic Air Command's assets, bombers, 
radar aircraft, and so on. But everybody kind of thought of it 
as, well, this is one thing that would be terrible if we had a 
nuclear war with the Soviets, so it is kind of a lesser 
included case. And the problem is that it is not now a lesser 
included case. If Iran gets one nuclear weapon, relatively 
primitive, just like what we dropped on Hiroshima, and can put 
it into a simple launcher, a Scud--they give Scuds to the 
Houthis in Yemen--a Scud and put it into orbit at, say, 100 
kilometers, which is the easiest thing to do in space, the 
first thing we did, the first thing the Russians did, launch a 
little satellite into space. They get into space, and it is 
low-Earth orbit, and it is going around the Earth a couple of 
times a day or so, it crosses the United States. If you have 
that up there and you are the Iranians and that morning you 
wake up and think you really mean the ``death to America'' 
business, then you can pickle it off and go, ``Boom,'' and 
knock out the American grid.
    It is not just a lesser included case of strategic--and, by 
the way, the Iranians are rather good at deception. They might 
try to make it look like it was North Korea or something.
    Senator Ayotte. And North Korea otherwise could do it.
    Mr. Woolsey. North Korea otherwise could do it.
    Senator Ayotte. They are not know for----
    Mr. Woolsey. Try to make it look like it is Iran.
    Senator Ayotte [continuing]. Really rational leaders all 
the time.
    Mr. Woolsey. So there are several factors, but when you put 
them all together, the government--and I guess finally with 
respect to electricity, the functions of government with 
respect to the electric grid, particularly after it was in 
part--competition introduced into it around 2000--is you have 
FERC, you have NERC, you have State authorities, you have 
different kinds of ownership practices in industry. You have 
chaos from the point of view of trying to have anybody in 
charge of a coherent policy. There is only one person, I think, 
who can set this priority for the Nation and get people going, 
and that would be the President of the United States.
    Senator Ayotte. And from what I hear from your testimony, 
you would say that it is very important that the President do 
that, whether it is this President or the next President, but 
as soon as possible.
    Mr. Woolsey. I absolutely think as soon as possible, 
because even if you are willing to hope that things will work 
out OK with North Korea and with other nuclear powers that 
could orbit a satellite, Iran is explicitly genocidal with 
respect to both us and Israel, and they are, I think, months 
maybe--I hope years, but quite possibly months away from having 
a nuclear weapon.
    Senator Ayotte. Well, and, of course, under the agreement 
that has been released, the U.N. Resolution against 
intercontinental ballistic missiles (ICBM) and their missile 
program will be lifted in 8 years, but the intelligence 
estimates have been that they would have ICBM capability this 
year, is what we have heard. So we know that, yes, the Scud 
would be the more primitive form, but they are also working on 
more advanced forms that could deliver these types of weapons 
and could have the same effect.
    Mr. Woolsey. Absolutely right. And the thing that is a 
problem here is that this is easier, an EMP shot is easier than 
launching a long-range missile at a target on the Earth. The 
shooter does not have to worry about reentry, does not have to 
worry about accuracy, none of that. They just need to get into 
orbit and detonate when the orbit takes the satellite over the 
United States.
    Senator Ayotte. Well, I want to thank all of you for being 
here. I did not get to a question which I will submit for the 
record, but there is some really important work being done on 
this issue at the University of New Hampshire (UNH), and they 
are actually a leader in the field of heliophysics and 
researching this area, and also the impact of actually building 
space aircraft instruments to predict and detect solar 
eruptions, but also other types of events are important that we 
have referenced today. So I am going to submit a question for 
that, and I want to give UNH a shout-out for their important 
work on this.
    And I think this is a wakeup call, Mr. Chairman, for 
important work we could do on this Committee to really raise 
the attention level of what would be a devastating impact on 
our country. So I thank you all for being here.
    Chairman Johnson. Thank you, Senator. It definitely is a 
wakeup call, although the wakeup call was first broadcast in 
2004, then 2008. And, by the way, I did do a quick calculation 
using my iPhone here: 200 critical transformers at $100,000 
would be $20 million. That is it, $20 million and we would go a 
long way toward at least protecting a good chunk of our 
electrical grid.
    Mr. Woolsey. About a third of a fighter aircraft.
    Chairman Johnson. $20 million, that is it. We are going to 
include that on our CIPA bill.
    Mr. Garwin. Could I reduce some confusion here, perhaps?
    Chairman Johnson. Sure.
    Mr. Garwin. Jim Woolsey and I worked together in 1998 on 
the Missile Threat Commission, and we said there it is not only 
the ICBMs but it is short-range missiles, cruise missiles, or 
ballistic missiles from freighters that could threaten the 
United States. Now, some people do not like to hear that 
because they like to build defenses against ICBMs, and it is 
hard to defend against these little things--even harder to 
defend against ones that do not have to actually reenter but 
could detonate over the United States.
    However, never mind radars. We do see every launch of a 
significant ballistic missile, even Scuds, with the warning 
satellites. And so we know where it is fired from. If it is a 
long-range missile fired from Iran or North Korea, we know. 
There are easier ways for those countries to commit suicide 
than to send a nuclear weapon to do EMP that does not kill 
anybody directly but may kill tens of millions of people 
indirectly.
    But among those would be many Iranians and North Koreans, 
and, one ought to say that, in my opinion.
    Chairman Johnson. Well, thank you, Dr. Garwin. Senator 
Carper.
    Senator Carper. Thanks again, everybody.
    I think I would like to start off my first question with 
Mr. Currie--thank you for being here--and Dr. Garwin. Here is 
my question: We have heard about high-altitude nuclear 
detonations and the EMP threat that they could pose. Where do 
manmade EMP threats rank in the spectrum of all homeland 
threats? Do you want to take a shot at that, Mr. Currie?
    Mr. Currie. Yes, sir. Thank you for the question.
    So that is the responsibility of DHS to assess those types 
of threats, and one of the things we found in our work is that 
DHS has not done that. They have not sort of incorporated the 
EMP or geomagnetic threat into their assessments yet. And there 
has been some confusion at DHS, too. When we asked them the 
question of who is responsible for doing that, there has been 
some confusion around who is supposed to do that.
    Senator Carper. OK. Dr. Garwin.
    Mr. Garwin. Nuclear weapons are not very widely available, 
and to add to that, the capability of launching them over the 
United States is also not something they find in the ordinary 
terrorist cell. So that is a blessing.
    The suitcase battery-operated EMP generators, they can 
cause damage at a substation, but there are a lot of other ways 
to cause damage at a substation by shooting the transformer----
    Senator Carper. We saw that near San Jose. I saw it with my 
own eyes.
    Mr. Garwin. Yes. Or, for instance----
    Senator Carper. Metcalf.
    Mr. Garwin [continuing]. Nuclear power plants. You use a 
little bit of explosives on the towers, and you bring down all 
the offsite power. That is why nuclear power plants have backup 
diesels, and we have taken that much more seriously after the 
Fukushima Daiichi meltdowns. But it took awhile to realize that 
the U.S. plants did not have sufficient battery capacity, did 
not have sufficient protection of their diesels.
    So the high-altitude nuclear explosion EMP threat is real. 
It is very special. We have many other problems of homeland 
security: disease spread by terrorists, for instance, as was 
mentioned; many other problems; widespread just shooting in 
marketplaces, which is endemic in the rest of the world--
fortunately, not so common here; bringing down the commercial 
aviation sector by various means. So Homeland Security has a 
lot of things to think about.
    Senator Carper. I like to say it is a busy neighborhood.
    Mr. Garwin. And EMP, we should fix the E3 threat. We should 
fix the solar storm threat. And then we should move on and do 
the E1 hardening and tell people that they are going to be out 
of business if such a thing happens, and that is an unnecessary 
vulnerability of the country.
    Senator Carper. Ms. Bourge, do you want to comment on what 
Mr. Currie and Dr. Garwin just said, please?
    Ms. Bourge. Thank you, Senator. What I would add to that is 
that the EMP threat is a lower-likelihood threat, but it is one 
of the highest-impact threats that you can find out there. And 
I think that is one reason that even though it is a very low 
likelihood, it is a very important issue, and a lot of people 
talk about it. Maybe not as many as should, and hopefully we 
are moving toward getting to public-private partnerships across 
the infrastructures to do so. But for now, it is a low-risk, 
high-impact threat. And as industry, we address those type of 
threats in a defense-in-depth approach, and so we take into 
consideration all threats, but then we do have to also factor 
in the likelihood, the ability to protect against it, the cost 
and impact on the consumers, and many other considerations as 
we are doing that to decide which threats we are going to 
address which ways. And so just because it is a low likelihood 
does not mean we do not think about it, but it means that it is 
one of the ones that is not the first that we are fixing.
    Senator Carper. All right. My followup to you, if I could, 
we have heard today that it could take as little as $20 million 
to upgrade 200 transformers in the United States. Would you 
like to address that number or that assertion?
    Ms. Bourge. So I have heard that number before in the past. 
Usually, I have heard it in reference to----
    Senator Carper. Do you have any idea how many transformers 
there are in the country? I do not know. Roughly. Are there 
100,000? Are there 50,000?
    Ms. Bourge. I believe you are looking at around 20,000 of 
the major transformers.
    Senator Carper. Major.
    Ms. Bourge. But I would have to confirm that number.
    Senator Carper. OK.
    Ms. Bourge. Joe might be able to----
    Mr. Garwin. I think there are only about 700 extremely high 
voltage (EHV) transformers, the ones that carry power over many 
hundreds of kilometers at voltages above 500,000 volts.
    Senator Carper. OK.
    Mr. Garwin. Those are the primary ones that would be 
damaged and should be protected.
    Senator Carper. All right. Good. Thanks.
    Mr. Garwin. But the $20 million that is the reproduction 
cost.
    Senator Carper. The what?
    Mr. Garwin. The cost of building these things once you 
decide what it is and you do all of the homologation--that is, 
you make sure it is suitable, it passes all the requirements of 
the various councils that are involved, and that is a good many 
million dollars before you get the first one. Now, some of that 
work has been done in Ontario Hydro and elsewhere.
    Senator Carper. We interrupted what you were saying, Ms. 
Bourge. Do you want to finish? I do not want to be rude.
    Ms. Bourge. Oh, no. No worries at all. I believe I had 
actually pretty much finished all my statement.
    Senator Carper. OK. Let me go back and ask a followup to my 
first question, Mr. Currie, to you and Dr. Garwin. How likely 
is it that a country, like Russia, like China, like North 
Korea, would detonate a nuclear weapon in the atmosphere above 
the United States? Do we have any deterrence in place to the 
launching of a high-altitude nuclear blast?
    Mr. Currie. Sir, from a GAO perspective, I do not know the 
answer to that. We have done some work, a couple of years ago 
on DOD's efforts, the Department of Defense's efforts to 
mitigate against this and plan for this, and that is completely 
classified. So we would be happy to give that report to you or 
your staff.
    Senator Carper. OK. That would be good. Thanks.
    Dr. Garwin, do you have any--first of all----
    Mr. Garwin. There are two aspects to what Ms. Bourge 
mentioned.
    Senator Carper. OK.
    Mr. Garwin. She said explicitly what would be the cost to 
the American public, the consumer, of such an event if it 
happened, and we do not really know that. We need many more and 
more precise and more public estimates of that. Then anybody 
can supply the probability, which is not really a probability 
because it is affected by people's decisionmaking process, and 
in the case of China and Russia, that is deterrable. We would 
deter that. This is not something that they could do lightly 
without realizing that they would suffer nuclear response, not 
just high-altitude EMP. So it would be very bad for their 
militaries, and you might say that could cause all-out war. So 
it could. And it would not help to put the blame on the one who 
started it. We have to think these things through.
    So what is the probability? Difficult to answer.
    Senator Carper. All right. Thanks.
    Mr. Chairman, my time has expired. I know you went on for a 
while, and I would like to go on--not for that long but for a 
while. Is that OK?
    Chairman Johnson. Can I come back to you? I just want to 
clarify a few things.
    Senator Carper. Sure.
    Chairman Johnson. Dr. Garwin, 700 total transformers that 
are kind of the critical ones, the long term; $100,000, that 
would be $70 million. Again, that does not even show up as a 
rounding error in the Federal budget. We are talking about $70 
million. But I did want to ask you a question. Are those 
capacitors that you are recommending already designed? Or is 
that something that would have to be developed?
    Mr. Garwin. The neutral current-blocking devices exist. 
They have been tried. A company, Emprimus, is offering them for 
sale. Who knows how much they are charging for it? I think that 
you can use one device on several transformers, and that is 
where this $100,000 or $150,000 per transformer comes from.
    The series blocking capacitors in the power lines 
themselves, those have not been designed. Those are also of the 
same order of cost. It depends whether you put them in 
substations on fiberglass stands, whether you actually hang 
them on the lines, what kind of control systems you put around 
them so that they do not cause any power problems when there is 
no electromagnetic pulse or solar storm.
    So those have not been designed. I wish to call attention 
to the fact that they exist. It is hard for an electrical 
engineer even to get her mind around the fact that you make a 
great big value of a capacitance, a lot of millifarads. And it 
still costs less than the ones that we are accustomed to having 
because the voltage across them is lower.
    Chairman Johnson. So, again, these are estimates. I am just 
trying to get a feel for how much we are talking about, how 
much of the electrical grid would it protect, and how quickly 
could we actually install these things. As a business guy, that 
would be my first questions. How much is it going to cost? How 
quickly could we install them, in what kind of phasing? And, 
how much development really has to occur on this? Anybody else 
can jump in.
    Mr. Garwin. You could do it in a couple of years.
    Chairman Johnson. But could you start installing some of 
these things tomorrow?
    Mr. Garwin. Yes, you could install neutral current-blocking 
devices. You could have some military base at the end of a long 
transmission line, install series-blocking capacitors. Yes, you 
could go ahead, and if it did not work, you would take it out 
of service. But you need to do analyses of the stability of the 
networks, electrical stability of the networks, and then you 
need to have competition to perfect these things. But, yes, you 
could get a good ways within a couple of years.
    Chairman Johnson. So, again, for this not even pocket 
change to the Federal Government, would this make sense for us 
to quickly authorize just a bare minimum level of protection, 
authorize, $20 to $70 million--again, no need to ask for an 
offset for that small amount--start installing these things, 
maybe they are not perfect, we can always upgrade them. And I 
guess I want to ask you, Mr. McClelland, and you, Ms. Bourge, 
is that something that we could support and get done and do it 
tomorrow? We will do other strategies. We will do other 
reports. But is this something we could do tomorrow, get that 
in motion so we can start installing these things as quickly as 
possible? Mr. McClelland.
    Mr. McClelland. I would say yes. I would also make a 
recommendation that we stay flexible. Neutral blocking may not 
be the only solution. It may not be a good fit for that 
particular site, and you will hear that from industry members 
that evaluate their----
    Chairman Johnson. But if we are paying for it----
    Mr. McClelland. Right.
    Chairman Johnson. I mean, is there going to be much reason 
for them to squawk?
    Mr. McClelland. No. And I would even say that there may be 
cheaper solutions, so instead of a neutral blocker, you could 
trip the transformer off.
    And just to put one other item in context, if you will 
allow me, the 1989 Quebec event, there was virtually no 
equipment damage, 10 hours of off time for the grid, cost 
between $1 to $2 billion. If you work backward and if you just 
inflate the cost to half a million dollars, you are equivalent 
then to $1 billion, the lower end of that cost for that 
relatively benign event, versus a much more severe event that 
is inevitable.
    Chairman Johnson. Again, so what I am going to try and 
convince our Ranking Member is to join me in authorizing up to 
$100 million to quickly install these as a first step. Could 
you do these things in a series? Again, we are talking about 
such a minimal expenditure with such a great risk. And, by the 
way, we do know GMD, it is 100 percent certainty that this will 
occur. Maybe not tomorrow, 10 percent every decade, but it will 
occur. It is 100 percent. And so we need to protect ourselves 
against that.
    Ms. Bourge, would industry have any problems if we 
authorized spending the money to install these types of 
controls, realizing they are not perfect and there may be 
better solutions, lower-cost solutions in the future, but let 
us at least do this minimal amount now and continue to look at 
this in the future?
    Ms. Bourge. I think the overall concept would not be so 
concerning, but there would be some concerns about the 
flexibility of what type of technology solutions are going to 
be applied and where we are applying, because the longitude or 
the closeness to water, things like that impact what type of 
protections are best recommended for an individual facility.
    So I am not sure if we would be comfortable with the idea 
of it just being a mandate, here is the money, but you need to 
install this specific technology on every part of the system; 
so much as here is some money, work together with DOE, figure 
out how best to install it----
    Chairman Johnson. OK. Happy to provide that flexibility, 
but I want to get the thing moving. So I do not want to say, 
well, until we have it all designed and we know exactly what we 
are going to put on all 700, we are going to do nothing. Let us 
take a look at if there are 500 which are pretty obvious, let 
us get the things installed. And it may not be perfect, and we 
will come back and authorize a better solution. Mr. Currie.
    Mr. Currie. Yes, sir. I will say one thing that could be a 
stumbling block, again, is this prioritization of the most high 
risk places or transformers, and it sounds like FERC has some 
efforts ongoing. Based on our work at DHS, we have not seen 
anything that has really fleshed that out yet or any entity at 
DHS that really knows that information. So that would be 
critical before you could ever figure out how to spend money.
    Chairman Johnson. But, again, FERC, you have done a fair 
amount--you have already done some studies, so you think this 
could be implemented pretty rapidly. So I will come to you 
guys, and I will leave DHS out of this for the time being, 
because you are little more prepared, or I will ask you to give 
the information to DHS. What a concept. We can actually get 
these things done. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Again, another question, if I could, for Ms. Bourge, and 
maybe, Dr. Garwin, you take a swing at this one as well. A 
fellow named Yousaf Butt--I think that is the correct 
pronunciation--a nuclear physicist and former researcher with 
the Harvard-Smithsonian Center for Astrophysics, recently wrote 
the following--this is what he wrote. He said, ``If terrorists 
want to do something serious, they will use a weapon of mass 
destruction--not mass disruption. They do not want to depend on 
complicated secondary effects in which the physics is not very 
clear.'' That is what he said.
    Let me just ask, is a high-altitude nuclear EMP a weapon of 
mass destruction or a weapon of mass disruption? If you believe 
it is a weapon of mass disruption, do you agree with Dr. Butt's 
statement? Ms. Bourge, please.
    Ms. Bourge. It is most definitely mass disruption when you 
are talking about a high-altitude nuclear EMP. The reason 
someone would detonate a nuclear bomb or device in the air like 
that is for the EMP effect. Otherwise, they are going to do a 
ground detonation.
    From our perspective, we tend to see it from a risk 
scenario. The most likely scenario is that a nuclear bomb would 
be detonated on the ground, not in the air, because a nation 
state would be doing an act of war. A terrorist is also going 
to be trying to kill as well as cause terror. So you would have 
some groups that would do a high-altitude detonation, but their 
intent has to be that mass panic, that mass destruction, 
without the mass casualties immediately.
    Senator Carper. OK. Again, Dr. Garwin, I will quote Dr. 
Butt again. He said, ``If terrorists want to do something 
serious, they will use a weapon of mass destruction--not mass 
disruption.'' Then he went on to say, ``They do not want to 
depend on complicated secondary effects in which the physics is 
not very clear.''
    Mr. Garwin. He asserts a better understanding of terrorists 
than I have. Yes, having a nuclear weapon, exploding it at 
ground level in a city, I have written about that a lot. That 
is a real problem. It is a lot easier to do, really, than 
sending it up without killing anybody immediately. But you will 
kill lots of people.
    Now, a first-generation nuclear weapon produces a very 
significant E1 and destroys all kinds of electronics. It does 
not do very much for the E3, that is, the geomagnetic storm-
like pulse. But it will kill a lot of people, not instantly, 
and, that is up to the terrorists' taste. It is easier for 
them, in my opinion, to detonate a nuclear weapon in a city. 
But that does not mean we should not protect against the other.
    Senator Carper. I have several other questions. If you 
would, just bear with me, please. A question on predicting 
space weather, if we could, and I do not know if this is a fair 
question to ask of you, Ms. Bourge, but I will start with you 
if I could.
    When it comes to space weather-generated geomagnetic 
disturbances, it appears that our ability to predict the 
intensity of solar flares and their impact on Earth is critical 
to mitigating the impacts to the electrical grid. Ms. Bourge, 
could you and maybe Dr. Garwin take this question for me? Can 
you address if the United States is doing a good job at 
predicting space weather events?
    Ms. Bourge. From the electric industry----
    Senator Carper. Microphone.
    Ms. Bourge. From the electric industry perspective, I would 
say that the United States is doing a pretty good job of 
predicting space events. We do get early alerts so that we are 
able to take protective action for our systems in the higher 
latitudes. That sometimes will mean turning off a system 
because we got that alert from the government in time.
    Senator Carper. Is it a couple of days? Is it hours?
    Ms. Bourge. So it depends on the size of the storm. 
Usually, it takes about 16 hours to, I think, 36 hours, if I 
recall correctly, for the storm to impact the Earth from when 
it first happened on the Sun, and we usually get close to that 
for type of a heads up. But you could have a shorter time 
period as well. But as long as we have enough time to have our 
operators respond, that works. And so that is a very important 
issue from our perspective, because unlike the EMP threat, the 
GMD threat we do get that early warning. We do know for sure. 
The military is not going to call us if they are tracking a 
nuke, most likely. But we do get a heads up when a GMD is 
heading our way. We know what level we are expecting. We know 
what region is likely to have the most impact, and we can take 
protective measures for our system.
    Senator Carper. What kind of protective measures would you 
take in those instances?
    Ms. Bourge. So in some cases, we already have existing 
technology on the systems at the higher latitudes to protect 
against GMDs. They are often called ``chokes.''
    Senator Carper. Chokes?
    Ms. Bourge. Chokes.
    Senator Carper. Like a chokehold.
    Ms. Bourge. Like a chokehold, because basically that is 
what it is doing to the current. It is trying to limit its 
ability to impact the system.
    And then we also have that early warning system. That is a 
big part of protection against a GMD, just knowing that it is 
coming, knowing what time you are expecting it so you can 
protect your system, and if need be, shut it off so it does not 
get hurt.
    Senator Carper. And if you get like a warning of 12, 18 
hours, that is enough time to shut down?
    Ms. Bourge. That is enough time. We always would love more 
time. The more time you have for things, the better. But that 
is a good window. I would caution that these are programs that 
are sponsored by government dollars. It is satellites that are 
out in space monitoring space weather for us. And it is very 
important as we move forward in the years that we do not 
consider removing these technologies from NOAA's suite of 
technologies and availabilities that they have.
    Senator Carper. Dr. Garwin, do you agree with anything that 
Ms. Bourge just said?
    Mr. Garwin. Quite a lot. We do not get very good warning. 
We see these things on the sun, and 24 or 36 hours later we may 
or may not have a severe geomagnetic storm on the Earth. A real 
warning of about 40 minutes comes from an ACE satellite or now 
the DSCOVR satellite on the Earth-Sun line off at a million and 
a half miles from the Earth out of 93 million miles to the Sun. 
Forty minutes is sort of short to change from economic dispatch 
where you send the electricity in the cheapest way to robust 
dispatch, which may do some good so that the lines are less 
heavily loaded and more generators are operating, so if one 
line goes out, another one can take over.
    We could have, as in the 2011 report, some so-called quasi-
satellites that would be out at 15 million miles. You cannot 
station them there. You have to have a whole swarm of them. But 
they can be tiny things, and that would extend from 40 minutes 
to about 7 hours and give you really better actionable 
intelligence.
    Senator Carper. OK.
    Mr. Garwin. So that would be a good thing. It really would 
not cost very much. Nobody that I know is planning for it.
    Senator Carper. All right. Thank you. And one last 
question, if I could, for Mr. Currie. Mr. Currie, the EMP 
Commission issued its recommendations several years ago, and I 
think those have been discussed at least to some degree here 
today. As I understand it, GAO is working to assess whether the 
Department of Homeland Security has implemented the EMP 
Commission's recommendations. Here is my question: Is DHS 
required to implement the EMP Commission's recommendations? 
That is one. Second, have any of the EMP Commission's 
recommendations been codified in statute? Go ahead and answer 
those first. Is DHS required to implement the EMP Commission's 
recommendations? And, two, have any of the EMP Commission's 
recommendations been codified in statute? Just do those first. 
And then I have one more followup.
    Mr. Currie. Sure. No, I am not aware of any law that 
requires DHS to implement the recommendations.
    Senator Carper. Have any of the Commission's 
recommendations been codified in statute yet?
    Mr. Currie. Not that we have seen.
    Senator Carper. OK. Last question: Did the EMP Commission 
recommend that any other department or agency take action?
    Mr. Currie. Absolutely. The Department of Energy was a big 
part of the EMP Commission report, too, and they were to work 
either independently or with DHS to implement the 
recommendations, too. And that is the same structure for 
protecting critical infrastructure across the country. DHS has 
the lead in coordinating, and they work with the sector-
specific agency. For energy, it is DOE. But that applies to all 
sectors, too. So it is a partnership.
    Senator Carper. OK. I want to, if I could just in a closing 
statement, thank each of you for coming today, for your 
preparation, and for your responses to questions.
    In the last Congress--I call him the wingman while I was 
chairing this Committee, was Tom Coburn of Oklahoma, Dr. 
Coburn, a House Member, a physician, a successful business 
person, and a valued member of this Committee and this body. 
And we were encouraged at one point in time--at several points 
in time in the last Congress to hold hearings and to delve 
deeper into this issue. And I recall him as a Congressman, he 
is one of those persons who--for those of you who know him--was 
already free to speak his mind. And one of our colleagues used 
to say of Tom, whom I love dearly, he would say, ``Dr. Coburn 
is sometimes mistaken but never uncertain.'' That is what he 
would always say. But he was oftentimes right.
    We once had a conversation about this issue. I think he 
described this issue as ``hokum.'' That is a word we sometimes 
use in Delaware. Again, going back to the characterization one 
of our colleagues used to have of Tom, I do not know if this is 
hokum or not. I think we have some pretty smart people here 
that are before us and who have the interests of our Nation at 
heart, have brought their concerns to us, and we should 
certainly be attentive to those. I know this is an issue that 
is especially important to our Chairman, so it is sure to get 
some attention. But I know just about enough to be dangerous on 
this subject, and I did not know that much before we started 
planning for this hearing, so I have learned a bit, and I have 
more to learn.
    But among other things, I know a little bit about cyber 
attacks. I know a little bit about cybersecurity. I know a 
little bit about data breaches. In fact, I have learned a lot. 
I remember a couple years ago when there was an article several 
years ago in the press that said I was the expert in the Senate 
on cybersecurity. And I turned to a member of my staff, and I 
said, ``Imagine that. I am an expert now in cybersecurity now 
that I am the Chairman of the Committee.'' And my staff person 
said, ``In the land of the blind, the one-eyed man is king.'' 
So for me not to get carried away with being deemed an expert 
in that.
    But I know a fair amount about those. I also know I am a 
retired naval flight officer (NFO), retired Navy captain, and 
spend a fair amount of time thinking about wars and being 
involved in one and worried about our homeland security and a 
lot of levels, including lone-wolf attacks--and those are not 
lone-wolf attacks--including avian influenza, Ebola. It is a 
wild and crazy world that we live in today, and we need to be 
able to sort of assess these risks, and to the extent that we 
have resources, people and other resources to push toward these 
risks, what we need to do is make sure that we are adjusting 
our resources that we have, can commit, are committing to the 
level of risk, and that we always keep that in mind.
    All right. Mr. Chairman, thanks so much for bringing this 
together and to all of you for joining us today.
    Chairman Johnson. Thank you, Senator Carper.
    I just have two quick questions. Then I will give everybody 
a chance, if you have another comment you want to make, to do 
that. First of all, does anybody on the panel think the threats 
from EMP and GMD is ``hokum''? Anybody?
    Ms. Bourge. I just have to admit I do not know the word. 
[Laughter.]
    Chairman Johnson. Hooey. Science fiction. Fanciful. Like 
not a problem.
    Ms. Bourge. I would not agree that it is imaginative or 
movie scenario only. It is a definite potential threat. I just 
would not agree that it is the most vital threat against our 
electric infrastructure.
    Chairman Johnson. OK. It is a real threat.
    Second, we were talking about one of the solutions would be 
basically shutdown--with early warning, shutdown. Correct?
    Ms. Bourge. For a GMD.
    Chairman Johnson. Now, we have a massive solar flare, space 
weather like a Carrington Effect. You would have to shut down 
everything, correct? Dr. Garwin.
    Mr. Garwin. You can wait, but we do not have the 
instrumentation right now to give you the information. We have 
to look at the individual transformers, listen to the noise 
they make, measure their ground currents, and in order not to 
shut them down unnecessarily, use the magnetometers. China has 
a much better display, deployment of National Science 
Foundation magnetometers than we have here.
    Chairman Johnson. But, again, that is making the decision 
based on what the extent of the solar discharge would be if it 
was massive, like a Carrington.
    Mr. Garwin. Well, we might----
    Chairman Johnson. You would have to shut it down then, 
correct?
    Mr. Garwin. With no protection deployed, yes, we could and 
should do that.
    Chairman Johnson. And for how long? How long do these space 
weather effects----
    Mr. Garwin. Some of them are a few days.
    Chairman Johnson. Which means you would have to--because we 
do not have protection, we have not installed the capacitors--
--
    Mr. Garwin. Yes.
    Chairman Johnson [continuing]. The only solution we have 
right now, the only protection would be early warning, and on 
something massive, complete shutdown of our electrical grid to 
save it.
    Mr. Garwin. Well, the North American Electric Reliability 
Corporation, argues that you do not have to plan for a 
shutdown. The grid is so vulnerable that it will shut itself 
down.
    Chairman Johnson. That is not very comforting, and it could 
shut down for a couple years. Ambassador Woolsey.
    Mr. Woolsey. Mr. Chairman, I just want to make one point on 
this issue of whether this is a low-probability, high-risk 
problem. There is more than one kind of probability. I 
sometimes talk about whether you are dealing with a malignant 
or malevolent 
problem--a malignant problem being something that is natural 
and it may metastasize, it may be terrible, it may be awful--
Ebola. But it is random in the sense that it is only influenced 
by nature. Whereas, a malevolent one is one where there is 
somebody on the other side actually planning to try to kill 
you, and you cannot really assign a probability to that. All 
you can do is try to understand their culture. A lot of people 
would not have thought in 1929 that within a decade we would be 
into World War II with the Nazis in control of Germany and the 
rest.
    But I want to read two sentences from an Iranian 
publication: ``Once you confuse the enemy communication 
network, you can also disrupt the work of the enemy command and 
decisionmaking center. Even worse, today when you disable a 
country's military high command through disruption of 
communications, you will, in effect, disrupt all the affairs of 
that country. If the world's industrial countries fail to 
devise effective ways to defend themselves against dangerous 
electronic assaults, then they will disintegrate within a few 
years. American soldiers would not be able to find food to eat, 
nor would they be able to fire a single shot.'' That is the 
Iranian magazine Nashriyeh-e Siasi, 17 years ago, in 1998. 
Their strategists have been following and analyzing General 
Slipchenko's work, which I mentioned. That is not something to 
which one can assign a random probability. If these guys get in 
control, a launch under some circumstances could be possible.
    Chairman Johnson. Again, that was 17 years ago, and they 
have been pretty patient. And now we have a deal that I believe 
will allow them to become a nuclear power with ballistic 
missile technology.
    Mr. Woolsey. Yes.
    Chairman Johnson. And this is in their military planning 
and strategy, as well as--and I would refer everybody to your 
testimony. You have a number of statements from military 
planners in Russia and China and North Korea.
    Mr. Woolsey. Yes.
    Chairman Johnson. Again, fully aware of this real threat--
not hokum. A real threat.
    Mr. Woolsey. Yes.
    Chairman Johnson. Again, this is not like, ``Oh, nobody has 
thought about this.'' No, people have thought about it, and 
they are planning for it, and they are giving themselves the 
capability to implement it.
    Mr. Woolsey. And the South Koreans are not getting bogged 
down in probabilities. They are toughening their grid because 
they have North Korea to deal with.
    Chairman Johnson. And we have known absolutely this for 
decades, publicly since at least 2004 with these EMP 
Commissions, and we have done virtually nothing.
    Mr. Woolsey. Absolutely.
    Chairman Johnson. When we can do something, and it does not 
cost very much--not perfect, but we can spend a few million 
dollars--millions. We are not talking billions. We are talking 
millions, and we could go a long way toward providing some 
pretty significant protection.
    Chairman Johnson. OK.
    Mr. Garwin. I will agree with that. I disagree with Jim 
Woolsey's characterization. It sounds like, not only 17 years 
ago. It sound like Sun-Tzu.
    Mr. Woolsey. It does. Sun-Tzu could have written that if he 
had known about EMP.
    Chairman Johnson. But he was not aware of nuclear weapons.
    Final comments, we will start with you, Ms. Bourge.
    Ms. Bourge. I just want to remind you that we do need to 
look at these issues as separate, GMDs and EMPs. I hear a lot 
of conflation, and I understand the reason why, because of that 
E3 component. But one thing I do not think was clear when we 
defined that out initially was it was defined as E3 component 
is similar to a severe GMD storm. That is not identical. That 
is similar. So there has been some disagreement, and there is a 
desire to have some research to see just how well does the GMD 
protections that we do utilize in some parts of the country 
currently, how well do those actually protect against an EMP? 
And so I am not sure if industry would agree that by putting on 
the technology solution that is being put forth here or the 
ones we already utilize in some parts of the industry, if that 
would actually solve the EMP threat.
    Chairman Johnson. And that is fine, but let us at least 
protect ourselves from GMD in a more robust fashion where it 
does not cost very much. And, again, my proposal would actually 
have the government pay for it, and we just need cooperation.
    Ms. Bourge. Well, we certainly----
    Chairman Johnson. Trust me, now I am all about let us not 
grow the Federal Government, let us not overregulate. I mean, I 
am your ally from that one still. So, again, kind of work with 
us on this. I would appreciate it. Mr. Currie.
    Mr. Currie. Yes, sir. Well, as I said in my opening 
statement, I think it is really difficult to fully assess the 
risks of this or prioritize investments and security when it is 
not clear who has the lead role, and that is one of the big 
themes that we have 
found--is that DHS has the lead role for critical 
infrastructure protection, but has not identified different 
roles and responsibilities for electromagnetic threats.
    Chairman Johnson. So that would be something our Committee 
could potentially help define in legislation. Dr. Garwin.
    Mr. Garwin. Let me pass right now.
    Chairman Johnson. Sure. Mr. McClelland.
    Mr. McClelland. Just one quick clarification. An EMP event 
and a GMD event would be events of mass destruction. The EMP 
Commission was very clear about the electronics and the 
transformers and the lead times associated with those systems 
as well as the other systems, the other infrastructure types 
that would be affected. A recovery would not be easy. In many 
cases, the generators are specifically and custom-built. They 
have transformers that are custom-built for their installation. 
So stockpiling those transformers and then replacing them after 
the effect is simply not a feasible solution.
    Chairman Johnson. OK. Ambassador Woolsey.
    Mr. Woolsey. Mr. Chairman, I want to thank you for holding 
this hearing and say that anything I can do in the future to 
help you in these efforts. After several years of Peter and I 
and others who are interested in this issue feeling like we are 
beating our heads against a wall, it is great to have a 
Chairman and a Committee that is taking us seriously.
    Chairman Johnson. I understand what that feels like, by the 
way. [Laughter.]
    Mr. Woolsey. Anyway, I just want to say thank you.
    Chairman Johnson. OK. Well, again, thank you for your work 
on this. Dr. Garwin.
    Mr. Garwin. OK. My summary is a small point, and in my 
analyses, E3 from a high-altitude nuclear explosion is easier 
to correct, to mitigate, than a geomagnetic storm because it is 
over in a minute or so, and you are going to shut down, 
generators are still spinning, easier to get back up.
    Chairman Johnson. Can you shut down quickly enough in an 
EMP, though? Doesn't that require microseconds?
    Mr. Garwin. No. The E3 does not cause damage for seconds or 
more because it is the power that is flowing in the 
transformers that can no longer resist the voltage----
    Chairman Johnson. But you need automatic trips. I mean, you 
are going to have to have some kind of detection in mind----
    Mr. Garwin. I agree with you, and you would have absolute 
certainty if you put in this warning system that I recommend, 
government-operated, high-altitude nuclear explosion went off, 
never went off before, and take measures to protect your 
system. Then milliseconds, seconds, those would be fine for 
protecting the transformers. Of course, other things may have 
been lost due to the E1 pulse.
    Chairman Johnson. OK. Well, again, I just want to thank all 
of you for your time, your thoughtful testimony, your answers 
to my questions, all of our questions. I hate to call this a 
``first step,'' but I guess we are kind of at that stage where, 
at least for this Committee, for the U.S. Senate, this is kind 
of a first step. Maybe we have had a number of first steps. It 
cannot be the last step. So I am going to aggressively pursue 
this, provide it the type of public attention I think it 
deserves, and hopefully the thoughtful evaluation so we can 
start moving forward. Let us do the easy things first, not 
perfect, but let us start offering and implementing some 
protections as we continue to study this, as we develop a 
longer-term strategy that is certainly more encompassing.
    So, with that, this hearing record will remain open for 15 
days until August 6 at 5 p.m. for the submission of statements 
and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 12:12 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
